    AUDIT OF ADMINISTRATIVE

  SUSPENSION, DEBARMENT, AND 

OTHER INTERNAL REMEDIES WITHIN

   THE DEPARTMENT OF JUSTICE



         U.S. Department of Justice

       Office of the Inspector General

                Audit Division


            Audit Report 12-01

              October 2011

  AUDIT OF ADMINISTRATIVE SUSPENSION, DEBARMENT,

        AND OTHER INTERNAL REMEDIES WITHIN

             THE DEPARTMENT OF JUSTICE


                              EXECUTIVE SUMMARY


      Suspension and debarment are administrative enforcement tools
aimed at protecting the integrity of federal funding. 1 A federal agency may
temporarily or permanently exclude individuals and entities from receiving
federal funding to protect the public interest by ensuring federal agencies
only award contracts to responsible parties.

      Suspension and debarment actions preclude individuals or entities
from transacting with the government on procurements, grants, and other
government funding mechanisms. 2 While a single agency may impose
suspension or debarment, the effect is government-wide. 3 Suspension and
debarment decisions are made either administratively, by each agency’s
suspending and debarring official (SDO), or statutorily, as a matter of law
following convictions for qualifying offenses. The Attorney General has
designated the Senior Procurement Executive as the SDO for the
Department of Justice (DOJ).

     Suspension and debarment actions are communicated to all
government agencies through the Excluded Parties Listing System (EPLS).
The General Services Administration (GSA) maintains the EPLS. However,
when a federal agency takes an action to exclude a party, the agency is
responsible for entering and updating the information about the excluded

       1
          Debarment is a final exclusion decision for a specified period of time, generally as
a result of a conviction, while suspension is a temporary action immediately effective to
protect public interest pending the completion of an investigation or legal proceedings.
       2
          Procurement activities include, but are not limited to contracts, leases, delivery
and purchase orders, and blanket purchase agreements. Non-procurement activities
include, but are not limited to, grants, cooperative agreements, contracts of assistance,
loans, and loan guarantees.
       3
         Subpart 9.4 of the FAR sets forth guidelines covering suspension and debarment
for procurement activities. Executive Order 12549 designated the Office of Management
and Budget (OMB) as the federal agency responsible for establishing non-procurement
suspension and debarment guidelines for all Executive branch agencies. Executive
Order 12689 expanded the scope of procurement and non-procurement suspension and
debarment actions by mandating government-wide, reciprocal effect. This means that no
agency shall allow a party to participate in any procurement or non-procurement activity if
the party has been debarred, suspended, or otherwise excluded from participation in either
a procurement or non-procurement activity.


                                             -i-
party into the EPLS. 4 As of May 19, 2011, the EPLS contained
77,864 currently excluded parties, 4,945 of which are DOJ’s responsibility.
Awarding officials from all federal agencies are required to review the EPLS
prior to making awards in order to ensure that no award is made to
suspended or debarred parties.

      In addition to suspension and debarment actions, DOJ components
may take action against a poorly performing contractor or grantee through
the use of other internal remedies. These include imposing additional
conditions on high-risk grantees or restricting grantees from receiving
component awards for a period of time. DOJ may also terminate contracts
for convenience, cause, or default to address deficiencies identified in
completing contract requirements. Unlike suspension and debarment, these
internal remedies are performed at the component level. Internal remedy
actions taken against grantees and other non-procurement award recipients
do not have a government-wide effect. However, contract terminations and
internal remedies related to procurement are reported in the Contractor
Performance Assessment Reporting System for use by all federal
government contracting officers in selecting contractors to receive awards.

Office of the Inspector General Audit Approach

      This audit examines DOJ suspension, debarment, and other internal
remedies by evaluating DOJ’s implementation and oversight of activities to
exclude parties.

      We surveyed 41 DOJ components and determined that 10 components
should be included in the scope of our audit. 5 We interviewed officials


       4
         The Justice Management Division’s (JMD) Procurement Policy and Review Group is
responsible for entering DOJ administrative suspension and debarment actions into the
EPLS, and the Denial of Federal Benefits and Defense Procurement Fraud Debarment
Clearinghouses within the Bureau of Justice Assistance (BJA) are responsible for entering
drug and defense related fraud and felony statutory debarments into the EPLS.
       5
          Through our survey, we identified 11 components that engaged in procurement
and non-procurement activities, including awarding grants, contracts, cooperative
agreements, loans or loan guarantees in fiscal years (FY) 2005 through 2010: the Bureau of
Alcohol, Tobacco, Firearms and Explosives (ATF); Federal Bureau of Prisons (BOP);
Community Oriented Policing Services (COPS); Drug Enforcement Administration (DEA);
Federal Bureau of Investigation (FBI); JMD; Office of the Federal Detention Trustee (OFDT);
OIG; Office of Justice Programs (OJP); Office on Violence Against Women (OVW); and
United States Marshals Service (USMS). However, we excluded the Office of the Inspector
General (OIG) from our audit because the Generally Accepted Government Auditing
Standards require auditors to decline to perform work where impairments to independence
can affect, or be perceived to affect, the independence of the audit organization. We did

                                           - ii -
responsible for suspension and debarment activities, examined case files for
suspension and debarment actions, and reviewed contract and award
documentation to evaluate DOJ’s implementation and enforcement of
suspension and debarment policies.

      We also reviewed DOJ policies and procedures, and interviewed
component officials to determine internal remedies, other than suspension
and debarment, utilized by DOJ to address poorly performing award
recipients, and the extent to which these actions have been coordinated and
communicated by the components.

      The results of our audit are detailed in the Findings and
Recommendations section of this report. Appendix I contains a more
detailed description of our audit objectives, scope, and methodology.

Results in Brief

       We reviewed all of the approximately 700,000 awards made by all DOJ
components from fiscal years (FY) 2005 through 2010 totaling
approximately $65.9 billion. From our review of these awards, we identified
77 contracts and modifications to contracts (0.01 percent) totaling
approximately $15.6 million that were made to six separate suspended or
debarred parties by DOJ components. 6 We found that 14 of these awards,
totaling approximately $140,000, were made because the awarding official
failed to review the EPLS to ensure that no award is made to a suspended or
debarred party immediately prior to making an award, even though that
final review is required by the FAR. Sixty-one of the remaining 63 awards
were made to two companies that as a whole had not been debarred.
However, federal funding was indirectly provided to debarred facilities
operated by the companies. We were unable to identify a cause for two of
the awards because the contracts were outside of the record retention period
and documentation was not available.

       Additionally, we found that from FYs 2005 through 2010, DOJ
components made 17 referrals for suspension or debarment involving
35 individuals and firms, resulting in 13 debarment actions against
individuals or firms.


not include the remaining 30 components in the scope of our audit because they indicated
that they had not awarded any funding during the time period of our audit.
       6
          Our analysis identified 60 contracts and 17 modifications to contracts that had
been made to six separate suspended or debarred parties. We did not identify any grants
or other non-procurement awards made to suspended or debarred parties.


                                          - iii -
      We also found that DOJ did not have a formal system to track the
status of suspension and debarment referrals, and as a result was unable to
accurately monitor the timeliness of its suspension and debarment
decisions. 7 In addition, DOJ did not promptly or accurately communicate its
debarment decisions to the EPLS. We concluded that the inaccurate and
untimely entries by DOJ create the potential for awards to be inadvertently
made to suspended or debarred parties by awarding officials throughout the
federal government.

       Our report includes eight recommendations to improve the
effectiveness of DOJ’s suspension and debarment program. The remaining
sections of this Executive Summary describe our audit findings in more
detail.

Background

      Suspension and debarment are tools established by executive order to
protect the government’s financial interests from unethical, dishonest, or
otherwise irresponsible entities and to and reduce fraud, waste, and abuse in
federal programs. 8 According to the executive order and implementing
regulations, suspension and debarment actions are based on entities’
“present responsibility” to handle federal funds, which means that use of
these tools is based on an assessment of entities’ current and prospective
capabilities, not their past misconduct. 9 Their use is not designed to be
punitive. Suspension differs from debarment in the purpose and duration of
exclusion. While debarment is a final exclusion decision for a specified
period of time, generally as a result of a conviction, suspension is a
temporary action immediately effective to protect public interest pending the
completion of an investigation or legal proceedings.

      Once a suspension or debarment decision has been made, the
information is entered into the EPLS, a web-based system maintained by the
GSA. The EPLS is the mechanism used to communicate information
regarding suspended or debarred entities to all federal agencies. Each

       7
        JMD officials informed us that as a result of our audit work, the SDO has begun to
implement a case tracking system.
       8
           Executive Order 12549.
       9
         FAR Subpart 9.407 is the implementing regulation for procurement related
suspension, FAR Subpart 9.406 is the implementing regulation for procurement related
debarment, and 2 C.F.R. § 180 is the implementing regulation for non-procurement
suspension and debarment.


                                          - iv -
federal agency is responsible for updating its individual suspension and
debarment records within the EPLS. 10

DOJ Awards to Suspended or Debarred Parties

      Prior to making awards, the FAR requires awarding officials to verify
within the EPLS if a potential recipient is eligible to receive federal funds. 11
We compared a listing of all awards made by DOJ from FYs 2005 through
2010 to the listing of excluded parties in the EPLS. We identified 75
contracts and modifications to contracts made by the Federal Bureau of
Prisons (BOP) totaling approximately $15.6 million and 2 awards made by
the Justice Management Division (JMD) totaling $30,000 to suspended or
debarred parties. 12

       We found that the awards to excluded parties were made because:

   1. There was a delay between the time a suspension or debarment action
      became effective and when that action was reported to the EPLS.

   2. BOP and JMD awarding officials failed to perform a final verification of
      the EPLS immediately prior to awarding a contract, exercising contract
      options, or otherwise extending work under an existing contract.




       10
           DOJ is responsible for entering two types of records within the EPLS. Suspension
and debarment actions decided by federal or state courts through a judgment under a
statute of law are referred to as statutory debarments, and actions related to awards made
by DOJ at the discretion of the SDO are referred to as administrative suspensions and
debarments. This audit focused on DOJ’s administrative suspensions and debarments and
other internal remedies. Statutory debarments decided by state and federal courts where
the information on the debarment is maintained in the EPLS by the DOJ is the subject of a
subsequent OIG audit.
       11
           FAR subpart 9.404(c)(7) states that the agency must establish procedures to
ensure that the agency does not solicit offers from, award contracts to, or consent to
subcontracts with contractors whose names are in the EPLS, except as otherwise provided
in this subpart.
       12
          We reviewed all of the approximately 700,000 awards made by all DOJ
components in FYs 2005 through 2010, totaling approximately $65.9 billion. Of the
77 contracts and modifications we identified, 61 were awarded by the BOP to two utility
companies totaling approximately $15.4 million. These utility companies were not debarred
at the time of the awards. However, both companies operated individual facilities that had
been debarred from receiving federal funding. The remaining 16 contracts and
modifications, totaling approximately $200,000, were made to companies that were listed in
the EPLS at the time of the awards.


                                           -v-
   3. Contracts were issued to eligible entities that provided funding to

      debarred facilities within the eligible entities.


DOJ Suspension and Debarment Decisions

        From FYs 2005 through 2010, DOJ components referred 17 cases
covering 35 individuals and firms to the SDO for suspension or debarment
decisions. 13 Suspension or debarment referrals may be made in connection
with a criminal conviction, civil judgment or settlement, or as a “fact-based”
referral based upon circumstances that would qualify an individual or entity
for suspension or debarment, but may or may not be pursued criminally or
civilly. Sixteen of the 17 referrals reviewed during our audit were made in
connection with criminal conviction, civil judgment, or civil settlement. One
of the referrals was “fact based.” 14 We found there is no formal system in
place to track the receipt of referrals or the status of each referral.
However, officials described that as a general process, referrals forwarded to
the SDO are assigned to a staff attorney within JMD’s Office of General
Counsel (OGC) to conduct fact finding for procurement or non-procurement
referrals. 15 These fact finding procedures include reviewing the facts of the
referral and affording a party proposed for suspension or debarment the
opportunity to submit information and argument in opposition of a proposed
debarment. If the suspension or debarment is not based upon a conviction,
civil judgment or indictment, and the proposed party’s submission raises a
genuine dispute over facts material to the proposed action, the proposed
party may request to appear with counsel, submit documentary evidence,
present witnesses, and confront any person presented by DOJ. Following
completion of fact finding, the staff attorney discusses the case with the SDO
who makes the final decision.

      We identified one referral for an individual and the associated firm that
was sent to the SDO in 2006, but had never been processed. According to
JMD officials, this case simply “fell through the cracks.” JMD officials stated
that they did not believe there was a sufficient basis to find that the entity
       13
          Of the 17 referrals to the SDO, 13 were from the OIG, 1 from the U.S. Marshals
Service, 1 from the BOP, 1 was self-reported by a contractor, and 1 from the United States
Attorney’s Office (USAO) in the Western District of Wisconsin.
       14
          Instances for which a component suspects potential criminal activity are referred
to an investigative agency. In these cases suspension or debarment may not be pursued to
avoid compromising an investigation or criminal and civil legal proceedings. In these
circumstances, it is important for components to coordinate its determination of whether to
make a referral with the involved investigators and prosecutors.
       15
         FAR subpart 9.4 contains guidance for procurement referrals. Guidelines for
non-procurement referrals are in 2 C.F.R. § 180.


                                          - vi -
was not presently responsible because of the passage of time since the
event that gave rise to the referral, and therefore took no action. 16 We also
identified 4 referrals, covering 10 individuals and firms, where JMD officials
indicated that the cases were declined for suspension or debarment actions
due to a lack of evidence. However, the case files did not contain any
documentation of the disposition of these cases. As a result, we were
unable to verify if a decision had been made. Justice Acquisition Regulations
require contracting staff to document the contract file accordingly if a
determination is made that available facts do not justify beginning
debarment or suspension proceedings. 17 In our judgment, the SDO should
ensure that a written record of each decision by the SDO is maintained
within the case file. Of the remaining 23 individuals and firms referred for
suspension or debarment, 3 were referred to another federal agency for
debarment, 7 were not debarred, and 13 were debarred.

      We reviewed DOJ case files and determined that the suspension and
debarment decisions were generally made in a timely manner. However,
due to the lack of documentation in the case files, we were unable to verify
the timeliness of 4 of the 17 referrals. Based on our initial review, we found
for the 10 procurement cases referred, it took between 42 and 64 working
days for the SDO to reach a decision for 3 cases. 18 However, JMD officials
subsequently informed us that the case files did not reflect phone
conversations held with the parties proposed for debarment to obtain
additional information in order to make the final debarment decision.
According to JMD officials, the decision on these cases had occurred within
30 days of the final telephone conversations. Additionally, we found that for
the 10 non-procurement cases referred, it took 47 and 125 days for the SDO
to reach a decision on two of these cases. 19 However, for the case that took
125 days, JMD officials informed us that they had several conversations with
       16
          Federal regulations state that the SDO must determine that an entity is not
“presently responsible” in order to pursue a suspension or debarment action against it.
Neither the FAR nor 2 C.F.R. § 180 defines the term “present responsibility,” and leaves this
determination to the discretion of the SDO.
       17
            48 C.F.R. § 2809.402.
       18
          FAR subpart 9.406-3(c)(4) states that if no suspension is in effect for a
procurement case where a notice of proposed debarment has been issued, the decision shall
be made within 30 working days after receipt of any information and argument submitted
by the contractor, unless the debarring official extends this period for good cause.
       19
          2 C.F.R § 180.870(a) requires the debarring official to make a written decision
whether to debar within 45 working days of closing the official record in non-procurement
cases. The official record closes upon the debarring official's receipt of final submissions,
information and findings of fact, if any. The debarring official may extend that period for
good cause.


                                            - vii -
the awarding component, criminal investigators, and the party proposed for
debarment to obtain additional information before the final decision was
made. According to JMD officials, the decision on this case occurred within
45 days of the final conversation. Because there was no mechanism to track
referrals, the SDO was unable to easily monitor the status and timeliness of
suspension and debarment decisions. However, as a result of our audit, JMD
officials have begun to implement a case tracking system. Suspension and
debarment decisions that are not made in a timely manner increase the
potential for irresponsible parties to obtain federal funding while a decision is
pending.

      JMD’s Procurement Policy and Review Group is responsible for entering
DOJ exclusions into the EPLS following the SDO’s decision. Of the
4 procurement exclusions and 9 non-procurement funding exclusions
imposed by the SDO, we found 2 of the 4 procurement debarment actions
exceeded the maximum time allowed between the SDO’s decision and
upload to the EPLS by 3 days. 20 Additionally, we found that 4 of the 8
non-procurement actions exceeded the maximum time to upload to the EPLS
by 119 to 164 days. 21 We identified one non-procurement debarment action
that was never uploaded into the EPLS, and one non-procurement action
that had been entered into the EPLS by JMD within 2 working days of
imposing the exclusion. However, due to an apparent error within the EPLS,
the record was not saved in the system. JMD is currently working with GSA
to determine the cause of this error in order to ensure the omission is
communicated to other EPLS users. Suspension and debarment actions that
are not communicated in a timely manner increase the potential for
awarding officials to inadvertently make awards to suspended or debarred
parties.

      We also reviewed the accuracy of DOJ entries in the EPLS to ensure
that awarding officials searching the EPLS would be able to identify debarred
parties and found that only 3 of the 11 records entered into the EPLS were
accurate. While we did not identify any such instances in our review of DOJ
awards, the potential exists for awards to be inadvertently made to
suspended or debarred parties as a result of these data inaccuracies.




      20
        FAR subpart 9.404(c)(3) requires agencies to report procurement suspension and
debarment actions to the EPLS within 3 working days after the action becomes effective.
      21
          2 C.F.R § 180.520(c)(1) requires federal agencies to report non-procurement
suspension and debarment actions to the EPLS within 5 working days after taking a
exclusion action.


                                         - viii -
      As a result of our discussions during the audit, JMD officials are in the
process of establishing an internal tracking log for suspension and
debarment cases and implementing policies and procedures to ensure that
records are promptly and accurately reported to the EPLS.

Other Internal Remedies Utilized by DOJ

       In addition to suspension and debarment, the Office of Justice
Programs (OJP), the Community Oriented Policing Services (COPS), and the
Office on Violence Against Women (OVW) utilize internal remedies to
address poorly performing grantees such as determining the awardees to be
ineligible for additional component funding or imposing special conditions on
an award.

       Grantees may be internally restricted by DOJ grant-awarding
components to remedy grant violations including, but not limited to,
unsupported or unallowable costs, non-conformance to the terms and
conditions of previous awards, or being otherwise not responsible. Internally
restricted grantees are placed on either COPS’ restricted grantee list, or
OJP’s high-risk list and may be subject to additional project monitoring and
reporting, required training, or ineligibility for future component awards. 22
Sanctions applied by one component are not reciprocal throughout DOJ. 23
For example, denial of additional COPS funding does not preclude other
granting components from making additional awards.

       We reviewed COPS’ and OJP’s current policies and found that violations
such as serious violations of the terms of a contract or public agreement, or
convictions for fraud or embezzlement that qualify grantees to be placed on
the high-risk or restricted list would also meet the requirements for
consideration of these grantees for suspension or debarment. From
FYs 2005 through 2010, COPS had taken action to restrict 65 grantees from
receiving additional COPS funding, but did not refer any of the 65 grantees
to the SDO for suspension or debarment. OJP also had not referred
grantees on the high-risk to the SDO for suspension or debarment because
the list is a management tool used to address risk in providing funding to
certain grantees. However, OJP and COPS said that they would consider


       22
          During our audit, we reviewed OJP’s Internal High-risk Policy. This internal policy
has since been implemented on a DOJ-wide basis to include all three major grant making
components of DOJ (COPS, OJP, and the OVW). The new DOJ-wide High-risk Policy is
managed by OJP’s Office of Audit, Assessment, and Management (OAAM).
       23
           According to OJP officials, OJP has added grantees to its high-risk list on behalf of
the OVW. Additionally, on June 13, 2011, COPS changed the name of its internal remedy
policy from the “bar” policy to the “Restricted Grantees Policy” for all future actions.

                                             - ix -
recommending a grantee for suspension or debarment on a case-by-case
basis. COPS and OJP said that being placed on the high-risk and restricted
lists does not preclude other DOJ granting agencies from making awards to
entities on the lists.

      OJP and COPS officials also informed us that they are currently
working with the OVW on an integrated approach to the application of
internal remedies within the DOJ grant-awarding components through the
Grant Challenges Working Group. This group will combine elements from
both OJP’s high-risk list and COPS’ restricted list into one combined policy to
internally address poorly performing grantees. This combined policy is
expected to be implemented for grants beginning in FY 2012.

       We also asked OJP if there was a maximum time period that a grantee
was allowed to remain on the high-risk list without addressing the underlying
deficiency. We were informed that although OJP’s high-risk program was
authorized in September 2007, it was not implemented until January 2009.
Therefore, no grantees had been designated as high-risk prior to 2009.
Since the list is relatively new, there has not yet been a need to address this
situation. However, OJP should consider including such a time limit in future
revisions to the policy.

Conclusion

      We reviewed approximately 700,000 contracts, grants, and
cooperative agreements totaling approximately $66 billion and identified
77 contracts and modifications totaling approximately $15.6 million made to
suspended or debarred parties between FYs 2005 and 2010. We found that
DOJ awarding officials have generally complied with the rules and
regulations of the FAR and Code of Federal Regulations (C.F.R.). However,
we identified deficiencies in DOJ’s suspension and debarment process and
noted that BOP and JMD officials are not uniformly checking the EPLS
immediately prior to making awards. Additionally, we found that corrective
action had not been taken to address the improper awards to suspended or
disbarred parties when the BOP discovered the improper awards.

      For the remaining eight components of the DOJ included in the scope
of our audit: the Bureau of Alcohol, Tobacco, Firearms and Explosives (ATF);
Community Oriented Policing Services (COPS); Drug Enforcement
Administration (DEA); Federal Bureau of Investigation (FBI); Office of the
Federal Detention Trustee (OFDT); Office of Justice Programs (OJP); Office
on Violence Against Women (OVW); and United States Marshals Service
(USMS), we did not identify any awards that were made to suspended or
debarred parties from FYs 2005 through 2010.

                                     -x-
       Seventeen referrals, covering 35 individuals and firms, were made for
suspension or debarment by DOJ components from FYs 2005 through 2010,
resulting in 13 debarment actions against individuals or firms. For the
limited number of suspension or debarment decisions that had been made,
these decisions were generally made in a timely manner. However, these
decisions were not promptly or accurately communicated through the EPLS.
Suspension and debarment actions must be communicated to awarding
officials throughout the government accurately and in a timely manner in
order to effectively protect the federal government’s interests. Inaccurate
and untimely entries reported to the EPLS by JMD create the potential for
awards to be inadvertently made to suspended or debarred parties by
awarding officials throughout the federal government.

       DOJ statutory debarments are the subject of a separate ongoing OIG
audit. That audit examines the DOJ litigating divisions’ processes for
referring convictions qualifying for statutory debarment pursuant to
10 U.S.C. § 2408 and reporting to the EPLS through the Defense
Procurement Fraud Debarment (DPFD) Clearinghouse. The audit will also
examine the Denial of Federal Benefits (DFB) Clearinghouse’s process for
reporting statutory debarments for drug trafficking and possession
convictions imposed by state and federal courts to the EPLS.

       In addition to suspension and debarment, the grant-awarding
components of DOJ utilize internal remedies to address poorly performing
award recipients. From FYs 2005 through 2010, DOJ components had taken
action to internally address approximately 500 poorly performing award
recipients. These remedies include, but are not limited to, additional special
award conditions, increased programmatic and financial monitoring, and
withholding of award funds. These internal actions are utilized as a
management tool to salvage a working relationship with the award recipients
and address deficiencies identified in the implementation and oversight of
the grants. However, internal actions taken by OJP to address poorly
performing award recipients do not provide for a maximum period of time
that a poorly performing award recipient may have to address these
deficiencies before being referred for suspension or debarment.

Recommendations

       In this report we make eight recommendations to improve the
utilization and effectiveness of suspension and debarment within DOJ.
Key recommendations include:



                                    - xi -
•	 All components should ensure awarding officials check the EPLS
   immediately prior to making awards as required by the FAR, and
   terminate awards or seek a waiver should a component become aware
   of an award to a suspended or debarred party after the award has
   been made;

•	 The SDO should implement a case tracking system to ensure referrals
   are followed up on and exclusion decisions are made and reported to
   the EPLS in a timely manner;

•	 The SDO should include written documentation of the final disposition
   of each referral and a brief statement of why suspension or debarment
   was not pursued in accordance with the Justice Acquisition Regulations
   in each case file; 24

•	 JMD should implement quality control procedures to ensure that
   suspension and debarment actions are completely and accurately
   reported in the EPLS, and immediately correct any errors and
   omissions in the EPLS data; and

•	 COPS, OJP, and OVW should consider including a maximum period of
   time an eligible grantee may remain designated as high-risk before
   they are referred for suspension or debarment when drafting the policy
   developed by the grant challenges working group.




  24
       48 C.F.R. Chapter 28 Subpart 2809.402.


                                     - xii -
                                TABLE OF CONTENTS


INTRODUCTION ................................................................................ 1


       Suspension..................................................................................2


       Debarment ..................................................................................2


       Excluded Parties List System .........................................................3


       OIG Audit Approach......................................................................4


FINDINGS AND RECOMMENDATIONS................................................ 5


I. 	   ENFORCEMENT OF SUSPENSION AND DEBARMENT ACTIONS ... 5


       DOJ Awards to Suspended or Debarred Parties ................................5


       Conclusion................................................................................. 12


       Recommendations ...................................................................... 13


II.	   IMPLEMENTATION AND OVERSIGHT OF SUSPENSION AND 

       DEBARMENT ACTIVITIES........................................................ 14


       DOJ Referrals for Suspension and Debarment ................................ 14


       DOJ Suspension and Debarment Decisions .................................... 15


       Other Internal Remedies Utilized by DOJ ....................................... 19


       Conclusion................................................................................. 26


       Recommendations ...................................................................... 27


STATEMENT ON INTERNAL CONTROLS............................................ 28


STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS...... 30


APPENDIX I – OBJECTIVE, SCOPE, AND METHODOLOGY................. 32


APPENDIX II – CAUSES FOR DEBARMENT....................................... 35


APPENDIX III – FEDERAL BUREAU OF PRISONS RESPONSE

    TO THE DRAFT REPORT .......................................................... 37


APPENDIX IV – JUSTICE MANAGEMENT DIVISION RESPONSE

    TO THE DRAFT REPORT .......................................................... 40


APPENDIX V – OFFICE OF COMMUNITY ORIENTED POLICING

    SERVICES RESPONSE TO THE DRAFT REPORT ........................ 43

APPENDIX VI – OFFICE OF JUSTICE PROGRAMS RESPONSE

    TO THE DRAFT REPORT .......................................................... 45


APPENDIX VII – OFFICE OF THE INSPECTOR GENERAL ANALYSIS

    AND SUMMARY OF ACTIONS NECESSARY TO CLOSE THE 

    REPORT .................................................................................. 48

                                INTRODUCTION

      Suspension and debarment are tools established by executive order to
protect the government’s financial interests from unethical, dishonest, or
otherwise irresponsible entities and to reduce fraud, waste, and abuse in
federal programs. Statutory debarment actions may be imposed by state
and federal courts as a punitive measure. However, administrative
suspension or debarment actions taken by federal agencies are not designed
to be punitive. Instead, under the executive order and implementing
regulations, use of these tools is based on entities’ “present responsibility” to
handle federal funds, which means that use of these tools is based on an
assessment of entities’ current and prospective capabilities, not their past
misconduct. 1 Suspension and debarment decisions are made either
administratively, by each agency’s suspending and debarring official (SDO),
or statutorily, as a matter of law as a result of convictions for qualifying
offenses. The Attorney General has designated the Senior Procurement
Executive as the SDO for the Department of Justice (DOJ).

       Suspension and debarment cover both procurement and
non-procurement activities, and have a government-wide, reciprocal effect
to limit affected parties’ ability to obtain any federal funding. 2 Procurement
activities include, but are not limited to contracts, leases, delivery and
purchase orders, and blanket purchase agreements. Non-procurement
funding activities include, but are not limited to, grants, cooperative
agreements, contracts of assistance, loans, and loan guarantees. Both
suspension and debarment are tools available to federal agencies to exclude
individuals or entities from receiving benefits of federal programs in order to
protect the public interest. However, suspension and debarment differ from
each other in the duration, process, and effective date of the exclusion.
Suspension allows federal agencies to immediately address concerns over
unethical or improper actions of an award recipient pending the outcome of
      1
         FAR Subpart 9.407 is the implementing regulation for procurement related
suspension, FAR Subpart 9.406 is the implementing regulation for procurement related
debarment, and 2 C.F.R. § 180 is the implementing regulation for non-procurement
suspension and debarment.
      2
           Executive Order 12549 designated the Office of Management and Budget (OMB) as
the federal agency responsible for establishing non-procurement suspension and debarment
guidelines for all Executive branch agencies. Subpart 9.4 of the Federal Acquisition
Regulation (FAR) sets forth guidelines covering suspension and debarment for procurement
activities. These guidelines define the causes for suspension and debarment, the
procedures to impose a suspension or debarment action, and the scope and duration of
suspension and debarment actions. Executive Order 12689 expanded the scope of
procurement and non-procurement suspension and debarment actions by mandating
government-wide, reciprocal effect.


                                          -1-
an investigation or legal proceeding, while debarment allows federal
agencies to protect the financial interests of the government against fraud,
waste, or abuse in future federal awards.

Suspension

      Suspension is a temporary action immediately effective to protect
public interest pending the completion of an investigation or legal
proceedings. A suspending official may impose suspension as an immediate
and temporary status of ineligibility of up to 18 months or at the conclusion
of legal or debarment proceedings. In order to impose suspension, a
suspending official must determine that: (1) adequate evidence exists to
suspect that an individual or entity committed an offense that would qualify
them for debarment, and (2) immediate action is necessary to protect the
public interest.

Debarment

      Debarment is a final decision to exclude an individual or entity from
receiving federal funding after a formalized process. 3 A federal agency may
debar an individual or entity for a lack of “present responsibility” and
convictions of offenses such as fraud, embezzlement, theft, forgery, and
bribery, among others, or civil judgments indicating a lack of business
integrity or honesty. 4 Federal regulations state that the SDO must
determine that an entity is not “presently responsible” in order to take a
suspension or debarment action against them. 5 Neither the executive order,

       3
          The process for debarment for procurement actions is defined in subpart 9.406 of
the FAR, and the process for non-procurement actions is defined in 2 C.F.R. § 180, subparts
A through I (this process has been codified by the DOJ at 2 C.F.R. § 2867). Federal
agencies are required to establish procedures for reporting, investigation, and referrals to
the SDO. The SDO shall review the facts of the referral and afford a proposed party the
opportunity to submit information and argument in opposition to a proposed debarment. A
notice of proposed debarment shall be issued by the SDO to the proposed party outlining
the reasons for debarment. Because suspension actions are immediate, no notification of
proposed suspension is required. In actions not based upon a conviction, civil judgment or
indictment, and the proposed party’s submission raises a genuine dispute over facts
material to the proposed action, the proposed party may request to appear with counsel,
submit documentary evidence, present witnesses, and confront any person presented by
DOJ. In matters not based upon conviction or civil judgment, the cause for debarment must
be established by a preponderance of evidence. Parties shall be given prompt notice by
certified mail of the SDO’s decision on whether or not to impose suspension or debarment.
       4
        A complete list of offenses that are eligible for debarment can be found in
Appendix II.
       5
         FAR Subpart 9.407 is the implementing regulation for procurement related
suspension, FAR Subpart 9.406 is the implementing regulation for procurement related

                                           -2-
Federal Acquisition Regulation (FAR), nor Code of Federal Regulations
(C.F.R.) defines the term “present responsibility,” and leaves this
determination to the discretion of the SDO. However, according to
interviews conducted during our audit work and information obtained from
suspension and debarment training, assessment of an entity’s “present
responsibility” is generally based on remedial steps the entity has taken to
demonstrate its effort and willingness to address the circumstances that had
qualified them for suspension or debarment. For example, an entity may
attempt to show its “present responsibility” by removing from the entity
employees or officials who were responsible for past misconduct,
establishing internal controls, and implementing a compliance program.

       An agency’s debarring official is responsible for determining whether
debarment is in the government’s best interest. Before a debarment
decision can be made, the debarring official will notify the individual or entity
of a proposed debarment and consider any response to the proposed
debarment in making a decision. Debarment is imposed for a specified
period of time following a final determination by a federal agency’s debarring
official. Guidelines set forth in the FAR state that generally, debarment
should not exceed 3 years. However, the debarring official may impose a
longer exclusion, including a permanent debarment, if circumstances
warrant. 6

Excluded Parties List System

       The Excluded Parties List System (EPLS) is a web-based system
maintained by the General Service Administration (GSA) that contains
government-wide information concerning suspensions and debarments. The
system is available to government agencies and the public. After an agency
imposes a suspension or debarment, the agency is responsible for uploading
that information to the EPLS.

      As of May 19, 2011, the EPLS database contained a total of
124,475 records, representing 77,864 currently excluded parties and
46,611 exclusions that have expired. DOJ is responsible for entering two
types of records into EPLS: (1) data on parties that DOJ has
administratively suspended or debarred; and (2) data on parties who have




debarment, and 2 C.F.R. § 180 is the implementing regulation for non-procurement
suspension and debarment.
      6
          FAR subpart 9.406-4.


                                         -3-
been debarred as a result of certain statutory requirements. 7 As of
May 19, 2011, there were 124,475 records entered into EPLS by DOJ, which
included 49 administrative debarments and 12,136 statutory debarments.
DOJ reports the statutory debarments to the EPLS through the Defense
Procurement Fraud Debarment (DPFD) Clearinghouse and the Denial of
Federal Benefits (DFB) Program. 8

OIG Audit Approach

     This audit examined DOJ’s implementation and enforcement of
suspension, debarment, and other internal remedies by evaluating DOJ’s
implementation and oversight of activities to exclude parties.

       We conducted an initial survey of DOJ’s 40 components, and
determined that 10 components should be included in the scope of our
audit. 9 These components were the Bureau of Alcohol, Tobacco, Firearms,
and Explosives (ATF); Federal Bureau of Prisons (BOP); Community Oriented
Policing Services (COPS); Drug Enforcement Administration (DEA); Federal
Bureau of Investigation (FBI); Justice Management Division (JMD); Office of
the Federal Detention Trustee (OFDT); Office of Justice Programs (OJP);
Office on Violence Against Women (OVW), and the United States Marshals
Service (USMS). Appendix I contains a more detailed description of our
audit objective, scope, and methodology.




       7
         The DOJ is responsible for entering two types of statutory debarments:
(1) debarments imposed by state and federal courts upon conviction for drug trafficking and
drug possession offenses, and (2) fraud and felony convictions arising from Department of
Defense contracts pursuant to 10 U.S.C. § 2408.
       8
          DOJ statutory debarments are the subject of a separate ongoing OIG audit. That
audit examines the DOJ litigating divisions’ processes for referral of convictions qualifying
for statutory debarment pursuant to 10 U.S.C. § 2408 and the reporting of those qualifying
cases to the EPLS by the DPFD Clearinghouse. The audit will also examine the DFB
Clearinghouse’s reporting of statutory debarment for drug trafficking and possession
convictions imposed by state and federal courts.
       9
          There are 41 components of the DOJ. However, we excluded the OIG from our
audit because the Generally Accepted Government Auditing Standards require auditors to
decline to perform work where impairments to independence can affect, or be perceived to
affect, the independence of the audit organization.


                                            -4-
                FINDINGS AND RECOMMENDATIONS


I. 	 ENFORCEMENT OF SUSPENSION AND DEBARMENT
     ACTIONS

      Federal and DOJ acquisition regulations require awarding
      agencies to verify the eligibility of a potential award recipient
      with the EPLS when selecting a contractor and again immediately
      prior to making awards to determine if potential recipients are
      eligible for federal funding. We identified 77 contracts and
      modifications to contracts totaling approximately $15.6 million
      that DOJ made to suspended or debarred parties. We found that
      DOJ made these awards for three reasons: (1) there was a
      delay between the time suspension or debarment was imposed
      and when that action was reported to the EPLS, which was not
      within the 3-day requirement for procurement awards and 5-day
      requirement for non-procurement awards; (2) DOJ awarding
      officials failed to check the EPLS just prior to making an award,
      exercising an option, or otherwise extending work under an
      existing contract, as required by the Federal Acquisition
      Regulation (FAR), or (3) DOJ issued contracts to eligible entities
      that provided funding to debarred facilities within the eligible
      entities.

DOJ Awards to Suspended or Debarred Parties

        From FYs 2005 through 2010, DOJ awarded approximately
700,000 contracts, grants, and cooperative agreements totaling nearly
$66 billion. We obtained a list of all awards made by each component as
well as a list of suspended and debarred parties from the EPLS, maintained
by the GSA. In a February 2009 audit report on the EPLS, the Government
Accountability Office (GAO) found that the EPLS data was insufficiently
reliable for determining how many excluded parties received federal awards
due to the number of missing entries in certain data fields and the lack of a
historical archive populated from record modifications. 10 Despite these data
limitations, we utilized the EPLS data to identify awards made by DOJ to
suspended or debarred parties because no other resource exists to obtain a
list of government-wide suspended or debarred parties. Therefore, due to
the unreliability of the EPLS data, our analysis of suspended or debarred

      10
        U.S. Government Accountability Office, Excluded Parties Listing System:
Suspended and Debarred Businesses and Individuals Improperly Receive Federal Funds,
GAO-09-174 (February 2009), 30-31.


                                         -5-
may not identify all instances of awards to suspended or debarred parties by
DOJ, and should not be treated as a comprehensive listing of such awards.

        We compared the list of DOJ awards to the EPLS list of suspended and
debarred parties to identify any awards made to suspended or debarred
parties. Records were matched based on each entity’s Data Universal
Numbering System (DUNS) number, name, and address to identify
suspended or debarred parties. For each match returned by these queries,
we reviewed the reasons for the exclusion listed in the EPLS and the contract
file from each component in order to verify each potential award made to
suspended or debarred parties. As shown in Table 1, our review identified
75 awards totaling over $15 million dollars made by the BOP to suspended
or debarred parties and that 2 awards totaling $30,000 were made to
suspended or debarred parties by JMD. 11

                              TABLE 1

             AWARDS TO SUSPENDED OR DEBARRED PARTIES

              IN FYs 2005 THROUGH 2010 BY COMPONENT


                                                  NUMBER OF
COMPONENT                                          AWARDS           DOLLAR AMOUNT
Federal Bureau of Prisons                            75 12             $15,561,794
Justice Management Division                           2                     30,000
TOTAL                                                77               $15,591,794
Source: USASpending, EPLS, BOP, and JMD

      From our analysis of the contracts made to suspended or debarred
parties, we determined that the 75 improper awards made by the BOP
occurred because:

   •	 In three improper awards, the BOP made the awards during the time
      between the start of a suspension or debarment action and when that
      action was reported to the EPLS by other federal agencies. Because of



       11
            Of the 77 contracts and modifications we identified, 61 were awarded by the BOP
to two utility companies totaling approximately $15.4 million. These utility companies were
not debarred at the time of the awards. However, both companies operated individual
facilities that had been debarred from receiving federal funding. The remaining 16 contracts
and modifications, totaling approximately $200,000, were made to companies that were
listed on the EPLS at the time of the awards.
       12
         This figure for the BOP represents 58 contracts and 17 modifications to contracts
made by the BOP.


                                           -6-
       this delay, the BOP was not aware of the ineligibility of the award
       recipient.

   •	 In eight awards, the BOP properly conducted an initial verification of
      the EPLS at the start of the award process. However, during the time
      between the initial review of the information in the EPLS and the
      award by the BOP, the entities had become suspended or debarred,
      but the BOP did not perform a second, final review of the information
      in the EPLS immediately prior to award as required by the FAR.

   •	 In 61 awards, the BOP awarded contracts to eligible entities that
      provided funding to debarred facilities within the eligible entities.
      These contracts were provided to companies that were eligible to
      receive federal funding. However, the individual facilities operated by
      the companies performing the work under the contracts had been
      debarred.

   •	 In one award, a contracting official had checked the Centralized

      Contractor Registry (CCR) instead of the EPLS.


   •	 In two awards, BOP officials informed us that because the contracts
      were outside of the retention requirements, the contract files were no
      longer available. Therefore, we were unable to determine why these
      awards had been made to suspended or debarred parties.

      We also determined that the two improper awards made by JMD
occurred because it appears JMD did not re-check the EPLS prior to
exercising options or otherwise extending work under an existing contract. 13

Awards Made Between the Start of a Suspension and Debarment Action and
Reporting to EPLS

      We determined that 3 of the 77 BOP contracts awarded were for the
purchase of less lethal munitions and had been made as a result of a delay
between the effective date of a suspension or debarment action and when
that action was reported to the EPLS by other federal agencies. The FAR
requires that each agency enter suspension and debarment information into
the EPLS within 3 working days after an action becomes effective. 14 During

       13
           JMD officials stated that the designated contracting officer had retired. Therefore,
there is no additional information available to determine the exact reason for the improper
awards.
       14	
             FAR subpart 9.404(c)(3).


                                            -7-
our review, we found that the BOP made three awards to one suspended
party on March 9, 2010. The entity was suspended by another federal
agency effective March 9, 2010, but was not entered into the EPLS until
March 10, 2010. Although the other federal agency uploaded the action to
the EPLS in a timely manner, the BOP unknowingly made awards to a
suspended or debarred party during the time between the start of the
suspension or debarment action and when the action was reported to the
EPLS because this information was not available in the EPLS prior to the BOP
making these awards.

      Additionally, the BOP awarded three additional contracts to the same
company for additional less lethal munitions. The fourth contract to the
same entity was made on March 10, 2010, and two more contracts to the
same entity on March 11, 2010. Each contract was awarded independently
by BOP institutions. Documentation contained in the BOP contract file shows
that the EPLS was checked February 23, 2010, during the solicitation
process for the award made on March 10, 2010, and one of the awards on
March 11, 2010. However, contracting officials appear to have neglected to
perform a final check of the EPLS immediately prior to making the awards.
For the final award, documentation showed that the EPLS was checked on
March 12, 2010. This sixth award was subsequently cancelled on
March 15, 2010.

       The C.F.R. and the FAR allow an agency to terminate the award for
material failure to comply with the terms and conditions of the award, or
pursue any other available remedies, including suspension and debarment, if
a federal agency later determines that an award recipient knowingly failed to
disclose in a transaction that they were presently excluded, convicted or
indicted for an offense qualifying for debarment, or had one or more public
transactions terminated for cause or default when they entered into the
transaction. 15 However, BOP officials took no action to correct five of the six
awards that were inappropriately made to the excluded party. Despite the
fact that the BOP was unaware of the debarment when they had made the
original three awards on March 9, 2010, an e-mail notifying BOP contracting


       15
            For procurement actions, the FAR only requires disclosure by the award recipient
in solicitations where the contract value is expected to exceed the simplified acquisition
threshold. “Simplified acquisition threshold” means $100,000, except for acquisitions of
supplies or services that, as determined by the head of the agency, are to be used to
support a contingency operation or to facilitate defense against or recovery from nuclear,
biological, chemical, or radiological attack (41 U.S.C. § 428a). In those instances, the term
means: (1) $250,000 for any contract to be awarded and performed, or purchase to be
made, inside the United States; and (2) $1 million for any contract to be awarded and
performed, or purchase to be made, outside the United States.


                                            -8-
officers of the debarment action was sent on March 15, 2010. At that point,
the BOP could have considered cancelling the remaining awards when they
subsequently learned of the exclusion. As a result, the BOP failed to enforce
suspension and debarment actions and made awards to suspended or
debarred parties.

EPLS Not Checked Prior to Award

       We identified one award for the purchase of food for inmates of federal
detention facilities made by the BOP where a contracting official had checked
the CCR instead of the EPLS. 16 Documentation in the contract file showed
that the awarding official checked the CCR on March 17, 2009, and
determined from that query that the entity receiving the award was eligible.
The award was subsequently made on March 24, 2009. However, the EPLS
showed that the award recipient had been debarred on March 9, 2009. We
followed up with BOP officials on this award and were informed that
contracting officials routinely check the CCR instead of EPLS to determine
eligibility of a potential award recipient. According to information posted to
the CCR website, the CCR displays a debarred or suspended message if an
organization is debarred or suspended from doing business with the federal
government, and the EPLS provides debarment and suspension information
to CCR. In this instance it appears that a communication error between the
CCR and the EPLS occurred. However, because the operation of the CCR is
outside of the purview of the OIG and the scope of our audit, we were
unable to fully verify the cause of this communication error.




       16
           The CCR is the primary registrant database for the federal government. The CCR
collects, validates, stores, and disseminates data in support of agency acquisition missions,
including federal agency contract and assistance awards. Both current and potential federal
government registrants are required to register in the CCR in order to be awarded contracts
by the federal government. Registrants are required to complete a one-time registration to
provide basic information relevant to procurement and financial transactions.


                                            -9-
Final Check of EPLS Prior to Award Not Performed

      We identified five contracts for the purchase of food for inmates of
federal detention facilities made by the BOP totaling approximately $70,000
where the company was not listed as debarred during an initial check of the
EPLS. However, between the time the company submitted its bid in
response to the solicitation and the time the award was made, the company
had been debarred. There was no indication in the contract documentation
provided by the BOP that a final check of the EPLS was performed
immediately prior to award as required by the FAR. 17

        Five different BOP facilities independently awarded five contracts to
this company. However, the company only informed one of the BOP
facilities of its debarment when the orders were placed. As a result of this
notification, the BOP procurement official cancelled a contract totaling
$10,569. However, because the contracting officials at the other four
facilities were not notified by the company, those four contracts were not
cancelled.

Contracts Issued to Eligible Entities Provided Funding to Debarred Facilities

        We identified several BOP contracts and modifications to contracts that
had indirectly provided funding to debarred facilities within two different
companies. BOP awarded the first company 30 contracts and
10 modifications to those contracts totaling approximately $11.8 million to
provide electricity to a BOP facility. The company as a whole had not been
debarred. However, one generating facility operated by the company had
been debarred for violations of the Clean Air or Clean Water Act by the
Environmental Protection Agency (EPA). When electricity is generated by a
generation facility the electric output is fed into the electrical grid for
delivery to customers. Once electricity enters the grid the electrons
produced by one generating facility are indistinguishable from electrons
produced at any other facilities. Because of this fact, it is impossible to
separate the electricity generated from a specific facility when purchasing
electricity. Therefore, BOP funds were indirectly provided to the debarred
facility.

     The BOP awarded the second company 14 contracts and
7 modifications to those contracts totaling approximately $3.6 million for
water and wastewater treatment to a BOP facility. The company as a whole
had not been debarred. However, several wastewater treatment facilities


      17
           FAR subpart 9.4.


                                     - 10 -
operated by the company had been debarred for violations of the Clean Air
or Clean Water Act by the EPA. The BOP contracts were made with the
parent company, and do not specify which wastewater facilities within the
company will provide water and wastewater services. The debarment
information within the EPLS lists a total of 15 debarred facilities, 7 of which
are in the service region of the BOP facility. Therefore, we concluded that
there is a high probability of services being provided to the BOP by debarred
facilities.

EPLS Not Checked Prior to Exercise of Option or Extension of Additional Work

       JMD made two sole source contract awards for servicing previously
installed building security equipment, while the entities were eligible to
receive federal funding. However, when JMD exercised options attached to
the original contracts, it appears that JMD awarding officials did not recheck
the EPLS to ensure the contractor was still eligible to receive federal funding
as required by the FAR. 18 Provisions of the FAR and C.F.R. require federal
agencies to request a written waiver from the agency head, or their
designee, justifying continued business dealings with the suspended or
debarred party. At the time of our review, no waivers had been requested
or approved related to these contracts.

      The C.F.R. and the FAR allow an agency to terminate an award for
material failure to comply with the terms and conditions of the award, or
pursue any other available remedies, including suspension and debarment, if
a federal agency later determines that an awardee knowingly failed to
disclose in a transaction that they were presently excluded, convicted or
indicted for an offense qualifying for debarment, or had one or more public
transactions terminated for cause or default when the awardee entered into
the transaction. 19




       18
            FAR subpart 9.405(d)(4) and subpart 9.405-1(b)(3).
       19
            For procurement actions, the FAR only requires disclosure by the contractor in
solicitations where the contract value is expected to exceed the simplified acquisition
threshold. “Simplified acquisition threshold” means $100,000, except for acquisitions of
supplies or services that, as determined by the head of the agency, are to be used to
support a contingency operation or to facilitate defense against or recovery from nuclear,
biological, chemical, or radiological attack (41 U.S.C. § 428a). In those instances, the term
means: (1) $250,000 for any contract to be awarded and performed, or purchase to be
made, inside the United States; and (2) $1 million for any contract to be awarded and
performed, or purchase to be made, outside the United States.


                                           - 11 -
Contract Records Outside of Retention Period

      We identified two awards that appear to have been made to a
suspended or debarred party by the BOP. However, BOP officials informed
us that because the contracts were outside of the retention requirements,
the contract files were no longer available. Therefore, we were unable to
determine the exact cause of the awards. BOP officials were able to provide
us with a general description of the two contracts from the Federal
Procurement Data System. This information showed that one of the two
awards was terminated approximately 1 year after the initial award was
made. However, BOP officials took no action to correct the other award that
was inappropriately made to the excluded party. As a result, the BOP failed
to enforce suspension and debarment actions and made awards to
suspended or debarred parties.

Conclusion

       We reviewed approximately 700,000 contracts, grants, and
cooperative agreements totaling nearly $66 billion, which represented the
total universe of awards by DOJ from FYs 2005 through 2010. Of those
awards, we identified 77 contracts and modifications (0.01 percent of the
total awards) totaling approximately $15.6 million (0.02 percent of the total
amount awarded) awarded to suspended or debarred parties. Seventy-five
of these contracts totaling over $15.5 million were awarded by the BOP, and
2 contracts totaling $30,000 were awarded by JMD. For the remaining eight
DOJ components included in the scope of our audit: ATF, COPS, the DEA, the
FBI, the OFDT, OJP, the OVW, and the USMS, we did not identify any awards
that were made to suspended or debarred parties from FYs 2005 through
2010.

       Our review found that DOJ awarding officials have generally complied
with the rules and regulations of the FAR and C.F.R. 20 However, we
identified significant deficiencies in checking the EPLS prior to making
awards within the BOP. Additionally, we identified instances where no
corrective action was taken to address the improper awards when DOJ
awarding officials made awards to suspended or debarred parties. The
success of suspension and debarment in reducing fraud, waste, and abuse
depends on the enforcement of suspension and debarment actions by
agency officials when making awards. Failure to ensure that funding is not
awarded to suspended or debarred parties increases the potential of financial
loss in federal programs, and prevents more responsible parties from
obtaining scarce federal funding.
     20
          FAR subsection 9.4 and 2 C.F.R. § 180.

                                         - 12 -
Recommendations

We recommend that the BOP and JMD:

  1. Ensure awarding officials check the EPLS prior to making awards or
     exercising options as required by the FAR;

  2. Seek a waiver for any justified ongoing contract work utilizing 

     suspended or debarred parties;


  3. Consider termination of awards should a component become aware of
     an award to a suspended or debarred party after the award has been
     made, and document any justifications for not terminating any
     improper awards.




                                   - 13 -
II.	 IMPLEMENTATION AND OVERSIGHT OF SUSPENSION
     AND DEBARMENT ACTIVITIES

      From FYs 2005 through 2010, DOJ has referred 17 cases for
      suspension and debarment, resulting in 13 debarment actions.
      Suspension and debarment decisions for these 17 cases were
      generally made in a timely manner. However, these decisions
      generally were not promptly or accurately communicated to
      other federal agencies through the EPLS. During this time
      period, DOJ’s grant-awarding components internally restricted
      approximately 500 award recipients as a result of performance
      issues, none of which had been referred for suspension or
      debarment. However, according to component officials, the list
      of internally restricted entities is meant to be utilized as a
      management tool in addressing deficiencies identified in award
      recipients’ administration of federal awards, and not to serve as
      the basis for awarding decisions outside of the grant-awarding
      components.

DOJ Referrals for Suspension and Debarment

        The C.F.R. allows an awarding component to determine if violations by
a contractor or grantee would warrant imposing suspension or debarment. 21
Awarding component officials consult with their appropriate legal counsel
prior to making a decision to initiate suspension or debarment proceedings.
If the decision is made to initiate suspension or debarment proceedings, the
component will immediately prepare a draft notice of proposed suspension
or debarment. This notice, along with the administrative file containing all
relevant facts and analysis is then forwarded to the SDO, following review by
the components legal counsel and the Bureau Procurement Chief. From
FYs 2005 through 2010, DOJ components referred 17 cases covering
35 individuals and firms to the SDO for suspension or debarment decisions. 22
Suspension or debarment referrals may be made in connection with a
criminal conviction or civil judgment or settlement, or as a “fact based”
referral based upon circumstances that would qualify an individual or entity
for suspension or debarment, but may or may not be pursued criminally or
civilly. Sixteen of the 17 referrals reviewed during our audit had been made



      21
           48 C.F.R. § 28 and 2 C.F.R § 180.
      22
          Of the 17 referrals to the SDO, 13 were from the OIG, 1 from the U.S. Marshals
Service, 1 from the BOP, 1 was self-reported by a contractor, and 1 from the USAO in the
Western District of Wisconsin.

                                          - 14 -
in connection with criminal conviction, civil judgment, or civil settlement.
One of the referrals was “fact based.” 23

DOJ Suspension and Debarment Decisions

       According to JMD officials, after receiving a referral, the SDO assigns a
staff attorney to conduct fact finding in accordance with the procedures in
the FAR and C.F.R. 24 These procedures include reviewing the facts of the
referral and affording a proposed party the opportunity to submit
information and argument in opposition of a proposed debarment. Following
completion of fact-finding, the staff attorney will discuss the case with the
SDO for a decision. If the suspension or debarment is not based upon a
conviction, civil judgment or indictment, and the proposed party’s
submission raises a genuine dispute over facts material to the proposed
action, the proposed party may request to appear with counsel, submit
documentary evidence, present witnesses, and confront any person
presented by DOJ.

Timeliness of SDO Decisions

      Between FYs 2005 and 2010, the DOJ components referred
35 individuals and firms to the SDO for consideration for suspension or
debarment. Of those 35 referrals, the SDO debarred 13, the SDO referred
3 to another agency because that agency had more funding at risk, the SDO
decided not to debar 17, and the SDO received 2 referrals but did not review
them. 25

      According to the FAR, a debarment decision in procurement cases shall
be made within 30 working days after receipt of any information and
argument submitted by the contractor, unless the debarring official extends
this period for good cause. Non-procurement funding debarment decisions
must be made within 45 days of the SDO’s receipt of final submissions from


       23
          Instances for which a component suspects potential criminal activity are referred
to an investigative agency. In these cases suspension or debarment may not be pursued to
avoid compromising an investigation or criminal and civil legal proceedings. In these
circumstances, it is important for components to coordinate its determination of whether to
make a referral with the involved investigators and prosecutors.
       24
            FAR subsection 9.4 and 2 C.F.R. § 180.
       25
          The Attorney General has designated the Senior Procurement Executive as the
SDO for DOJ. Final authority to suspend or debar parties within DOJ lies with the Senior
Procurement Executive. We did not evaluate, nor do we provide an opinion on, the validity
or accuracy of each suspension and debarment decision.


                                           - 15 -
the party proposed for debarment. 26 We reviewed supporting
documentation and determined the number of working days from receipt of
the final response from the party proposed for debarment until the
debarment decision by the SDO. Based on our initial review, we found that
for 3 of the 10 procurement cases referred, it took between 42 and
64 working days for the SDO to reach a decision. However, JMD officials
subsequently informed us that the case files did not reflect phone
conversations held with the parties proposed for debarment to obtain
additional information in order to make the final debarment decision.
According to JMD officials, the decision on these cases had occurred within
30 days of the final telephone conversations. In accordance with the FAR, a
party proposed for debarment is included on the EPLS upon issuance of the
notice of proposed debarment. 27 This practice reduces the potential for
untimely debarment decisions by the SDO to allow irresponsible parties to
obtain federal funding while a decision is pending.

       Based on our initial review, 2 of the 10 non-procurement decisions
took longer than 45 days. These decisions were made within 47 and
125 days. However, for the case that took 125 days, JMD officials informed
us that they had several conversations with the awarding component,
criminal investigators, and the party proposed for debarment to obtain
additional information before the decision was made. According to JMD
officials, the decision on this case occurred within 45 days of the final
conversation. Unlike procurement debarment actions, non-procurement
debarments are not entered into the EPLS until a final decision is made by
the SDO. 28 As a result, non-procurement suspension and debarment
decisions that are not made in a timely manner increase the potential for
irresponsible parties to obtain federal funding while a decision is pending. 29
Of the remaining individuals or firms referred for suspension or debarment,
10 did not contain documentation on the final disposition, and 3 were
referred to another agency.

      During our review, we found that there is no formal system in place to
track the receipt of referrals or the status of each referral. Lack of a

       26
          Submissions by parties proposed for debarment include any information to
dispute the facts material to the proposed debarment.
       27
            FAR subpart 9.405(a).
       28
            2 C.F.R. § 180.810
       29
           JMD has implemented a procedure to issue a notice of suspension in conjunction
with the notice of proposed debarment to prevent untimely decisions from increasing the
potential of irresponsible parties obtaining additional federal funding for non-procurement
referrals based upon a conviction.

                                           - 16 -
tracking system makes it difficult for the SDO to monitor the timeliness of
each suspension and debarment decision. Additionally, we identified one
referral, for an individual and an associated firm, which had been sent to the
SDO, but had never been processed. We asked JMD officials why the case
had never been followed up on, and were informed that the case simply “fell
through the cracks.” JMD officials stated that they did not believe there was
a sufficient basis to find that the entity was not “presently responsible”
because of the passage of time since the event that gave rise to the referral,
and therefore took no action. 30

       As previously mentioned, we identified four referrals, covering six
individuals and four firms, where we were informed by JMD officials that the
cases had been declined for suspension or debarment due to a lack of
evidence. However, the case files did not contain any disposition
documentation to support this decision. As a result, we were unable to
verify whether a decision was reached or if the cases had been resolved.
Justice Acquisition Regulations require contracting staff to document the
contract file accordingly if a determination is made that available facts do
not justify beginning debarment or suspension proceedings. 31 In our
judgment, this requirement should apply to the SDO as well, to ensure that
a written record of each decision by the SDO is maintained within the case
file.

Entry of Suspension and Debarment Decisions into the EPLS

      As stated previously, the EPLS serves as the central repository for
suspension and debarment information, and is the only mechanism available
to communicate suspension and debarment decisions to the entire
government. Records uploaded to the EPLS must be accurate to ensure
awarding officials identify debarred parties when making awards. Within
DOJ, the responsibility for timely and accurate reporting rests with JMD’s
Procurement Policy and Review Group. As discussed in the following
sections, we reviewed DOJ suspension or debarment actions entered into the
EPLS to determine the timeliness and accuracy of reported information.




       30
          Federal regulations state that the SDO must determine that an entity is not
“presently responsible” in order to pursue a suspension or debarment action against it.
Neither the FAR nor 2 C.F.R. § 180 defines the term “present responsibility,” and leaves this
determination to the discretion of the SDO.
       31
            48 C.F.R. § 2809.402.


                                           - 17 -
      Timeliness of Entry

      The FAR states that an agency must enter information on procurement
actions into the EPLS within 3 working days after a suspension or debarment
is imposed. Two of the four procurement debarment actions taken by the
DOJ were reported to EPLS within 6 days rather than within the 3 days
required. Suspension and debarment actions that are not communicated in
a timely manner increase the potential for awarding officials to inadvertently
make awards to suspended or debarred parties.

       The nine remaining debarment actions were non-procurement funding
suspensions or debarments imposed by DOJ. The C.F.R. regulations state
that information about an excluded party in a non-procurement funding
activity must be entered into the EPLS within 5 working days of imposing an
exclusion. 32 During our review, we found that three of the nine exclusions
were reported within 5 days as required. However, DOJ’s reporting for the
remaining four exclusions materially exceeded the 5 day requirement
because they were entered into the EPLS after more than 124 days. One
non-procurement funding exclusion had never been uploaded into the EPLS,
and the final non-procurement action had been entered into the EPLS within
2 working days of imposing the exclusion. However, due to an apparent
error within the EPLS, the record was not saved in the system. JMD is
currently working with GSA to determine the cause of this error in order to
ensure the omission is communicated to other EPLS users.

      Accuracy of Entry

      We also verified the accuracy of the entries uploaded to the EPLS by
JMD’s Procurement Policy and Review Group by comparing information
contained in the case files to the electronic records in the EPLS. During our
review, we found that only 3 of the 11 records entered into the EPLS had
been accurately reported. Six records contained inaccurate start or end
dates of debarment, one contained errors in the address fields, and one
inaccurately reported the individual’s name. Additionally, for 8 of the
11 entries, the information entered into EPLS related to the addresses, social
security numbers, and DUNS numbers was not documented in the case file.
JMD officials said they obtained the information instead from the prosecuting
attorney, investigators, or an on-line legal research tool.

     Suspension and debarment actions must be communicated to
awarding officials throughout the government accurately and in a timely


      32
           2 C.F.R. § 180.


                                    - 18 -
manner in order to effectively protect the federal government’s interests.
Inaccurate and untimely entries reported to the EPLS by JMD create the
potential for awards to be inadvertently made to suspended or debarred
parties by awarding officials throughout the federal government. An official
tracking system for suspension and debarment decisions would allow JMD
officials to monitor the status of each decision, including the timeliness of
upload to the EPLS.

       We also asked JMD officials about the timeliness of reporting and the
errors and omissions in the EPLS data. We were told that the entire office,
consisting of four people responsible for data entry, had retired within a
week of each other in late FY 2009, leaving a gap in the oversight of data
entered into the EPLS. As a result of our discussions during the audit, JMD
officials are in the process of establishing an internal tracking log for
suspension and debarment cases and implementing policies and procedures
to ensure that records are promptly and accurately reported to the EPLS.
These policies include requiring training for staff uploading suspension and
debarment actions to the EPLS, entering and verifying suspension or
debarment actions in the EPLS, recording actions in the Procurement Policy
and Review Group suspension and debarment log, providing the OGC a print
out from EPLS of the suspension or debarment action for inclusion in the
case file, and notifying DOJ Bureau Procurement Chiefs via email of
suspension and debarment actions.

Other Internal Remedies Utilized by DOJ

       In addition to suspension and debarment, DOJ components may utilize
internal remedies to address poorly performing contractors or grantees.
Each component may independently impose these internal remedies, which
do not have a government-wide effect. However, procurement-related
internal remedies are communicated to other federal agencies’ contracting
officers to facilitate their procurement award process. Non-procurement
internal remedies are only shared between DOJ’s three grant-awarding
components – COPS, OJP, and OVW. During our audit we identified
approximately 200 contracts totaling approximately $23 million that had
been terminated by DOJ components as a result of performance issues from
FYs 2005 through 2010. During that period, DOJ components referred
8 procurement cases involving 16 individuals and firms to the SDO for
suspension and debarment.




                                    - 19 -
Procurement Related Internal Remedies

       DOJ components may terminate contracts for convenience, cause, or
default to address deficiencies identified in completing contract
requirements. The rules and regulations for terminating contracts are
defined in the FAR. 33 Termination for convenience allows the government to
terminate the work under a contract in whole or in part whenever it
determines that such action is in the best interest of the government.
Termination for cause remedies may be used in the event the contractor
defaults on the contract, fails to comply with contract terms or conditions, or
fails to provide the government, upon request, with adequate assurances of
future performance. 34 Termination for default is generally the exercise of
the government’s contractual right to completely or partially terminate a
contract because of the contractor’s actual or anticipated failure to perform
its contractual obligations. 35 Unlike suspension and debarment, these
internal remedies are imposed at the component level.

      Contract terminations are reported through the Contractor
Performance Assessment Reporting System for use by all contracting officers
of the federal government in selecting contractors to receive awards. The
Contractor Performance Assessment Reporting System is a web-based
system maintained by the Department of Defense used to collect data on
contractor performance. It can be used to effectively communicate
contractor strengths and weaknesses to source selection officials.

       In addition, DOJ components may also utilize internal remedies to
address deficiencies identified in the performance of grantees. Three DOJ
components - the OJP, COPS, and OVW - utilize internal remedies to address
poorly performing grantees, such as determining the awardees to be
ineligible for additional component funding or imposing special conditions on
an award.




      33
           FAR subpart 12.403 and FAR subpart 49.4.

      34
           FAR subpart 12.403.

      35
           FAR subpart 49.4.



                                         - 20 -
OJP’s High-Risk List

      OJP utilizes a “high-risk” list to internally address poorly performing
grantees. 36 A grantee or subgrantee may be considered high-risk if an
awarding agency determines that a grantee or subgrantee:

   •	 has a history of unsatisfactory performance,

   •	 is not financially stable,

   •	 has a management system which does not meet OJP’s management
      standards,

   •	 has not conformed to terms and conditions of previous awards, or

   •	 is otherwise not responsible.

OJP automatically designates a grantee as high-risk if the grantee:

   •	 has audit recommendations under OMB Circular A-133 (Single Audit)
      or OIG grant audit recommendations that remain open for more than
      1 year, and has not submitted documentation that adequately
      addresses the recommendations;

   •	 has open audit report recommendations with questioned costs that
      exceed $500,000 - regardless of the amount of time that the report
      has been open - and OJP’s Office of Audit, Assessment, and
      Management (OAAM) has reviewed the questioned costs and agrees
      with the OIG that the questioned costs were unallowable,
      unsupported, or unauthorized;

   •	 does not provide a Corrective Action Plan within 105 days of OJP’s
      transmission of the audit report to the grantee;

   •	 is on the list of grantees prohibited from receiving funding from COPS;
      or,

   •	 has been recommended for suspension or debarment by DOJ.


       36
          According to OJP officials, OJP has added grantees to its high-risk list on behalf of
the OVW and COPS. Additionally, we reviewed OJP’s Internal High-risk Policy. This internal
policy has since been implemented on a DOJ-wide basis to include all three grant making
components of DOJ (COPS, OJP, and the OVW). The new DOJ-wide High-risk Policy is
managed by OJP’s OAAM.

                                            - 21 -
      In addition to these automatic triggers, any OJP component may refer
a grantee for high-risk designation if the component becomes aware of
serious programmatic or financial non-compliance issues. Sources of
information on these issues include, but are not limited to, OJP
programmatic and financial monitoring, OIG audits and investigations, Single
Audits, referrals from other DOJ components or federal agencies, and the
media.

      To address non-compliance issues related to grantees or subgrantees
designated as high-risk for current or future awards, OJP will consider
imposing sanctions such as additional special award conditions, increased
programmatic and financial monitoring (on short notice), withholding of
grant funds as part of the “draw down” process, mandatory financial and
grants management training, mandatory third party management of grant
funds, and referral for official suspension and debarment. 37 From FYs 2005
through 2010, OJP did not make any referrals to the SDO for suspension or
debarment. In addition, being placed on the high-risk list does not preclude
a grantee from obtaining additional funding from OJP or other DOJ
components.

       The list of grantees designated as high risk is updated on a monthly
basis and posted on OJP’s internal web page. The list of high-risk grantees
is also provided to OVW and COPS. OVW and COPS use the list to identify
new grant awards that are being made to grantees on the high-risk list and
subsequently attach the appropriate high-risk special conditions to these
awards. The monthly update also includes a list of grantees that have
adequately addressed their outstanding non-compliance issues, and as such,
have been removed from the high-risk designation list.

       We compared suspension and debarment criteria to OJP’s high-risk
designation criteria and found that violations that would qualify grantees for
high-risk designation could also meet the requirements for consideration of
these grantees for suspension or debarment. For example, suspension
actions may be taken if adequate evidence exists to suspect that an entity
may qualify for debarment, and immediate action is necessary to protect the
public interest. A federal agency may debar an individual or entity for a
violation of the terms of a public agreement or transaction so serious as to
affect the integrity of an agency program, such as: 38

       37
          The term “draw down” refers to the process in which a grantee requests and
receives reimbursement for qualifying expenditures using grant funds.
       38
        A public agreement includes, but is not limited to, contracts, grants, cooperative
agreements, loans, and loan guarantees made by the federal government.


                                          - 22 -
       •	 a willful failure to perform in accordance with the terms of one or
          more public agreements or transactions,

       •	 a history of failure to perform or unsatisfactory performance of one
          or more public agreements or transactions, or

       •	 a willful violation of a statutory or regulatory provision or
          requirement applicable to a public agreement or transaction.

       We asked OJP officials why grantees on the high-risk list had not been
referred to the SDO for suspension or debarment, and were informed that
OJP’s high-risk list is a management tool used to address risk in providing
funding to certain grantees. 39 OJP will consider recommending a grantee for
suspension or debarment on a case-by-case basis. Grantees that OJP
determines do not necessitate suspension or debarment are placed on the
high-risk list. We also asked if there was a maximum time period that a
grantee was allowed to remain on the high-risk list without addressing the
deficiency that had originally designated them as high-risk. We were
informed that although OJP’s high-risk program was authorized in
September 2007, the position responsible for the implementation of the
high-risk program was vacant until January 2009. Therefore, no grantees
had been designated as high-risk prior to 2009. Since the list is relatively
new, there has not yet been a need to address this situation. However, OJP
may consider including such a time limit in future revisions to the policy.

COPS’ Restricted Grantee List

      COPS utilizes a restricted grantee list to internally restrict funding to
poorly performing grantees. 40 According to COPS’ Restricted Grantee Policy,
a grantee may be restricted from receiving future COPS grant awards for a
specific period of time to remedy grant violations including, but not limited




       39
          OJP officials told us that two OJP high-risk grantees had been the subject of
criminal conviction or civil settlement. However, as the investigating component, the OIG
had referred the convicted individuals associated with these grantees to the SDO for
debarment.
       40
           On June 13, 2011, COPS changed the name of its internal remedy policy from the
“bar” policy to the “Restricted Grantees Policy” for all future actions.


                                          - 23 -
to, unsupported costs, unallowable costs, and supplanting after COPS has
fully pursued all other applicable remedies. 41

      In general, if a grantee has not remedied grant violations through
other means such as direct repayment of funds, offset, installment
repayment plans, or submission of supporting documentation, within 3 years
or less, COPS may impose a restriction. From FYs 2005 through 2010, COPS
had taken action to restrict 65 grantees. The length of the restriction is
dependent on the dollar amount of the violation, but may last up to 3 years.
A COPS restriction does not preclude other DOJ granting agencies from
making awards to entities on the COPS restricted list.

       COPS staff may request authorization from the Deputy Director for
Grant Operation or General Counsel, or their designees to restrict a grantee
from receiving additional funding. COPS staff may be informed of a
grantee’s violations of grant conditions through such means as OIG audits or
financial and programmatic monitoring. At any time during a restriction
period, a restricted grantee may request that COPS lift the restriction early
upon receipt of either a check containing the full amount of funds owed or
the signed installment repayment plan and first installment payment. In
limited cases, restrictions may also be lifted prior to the completion of the
full restriction period under extenuating circumstances.

       Before COPS makes an award, applicants are vetted against the
restricted list and OJP’s high-risk list. Awards are generally not made to
applicants on the restricted list. COPS will make an exception to funding an
entity on the restricted list when a restricted entity’s funding for a specific
program is provided as a congressional earmark written into COPS’
appropriations. However, an entity will not be awarded funding under any
other COPS program.

      COPS’ restricted list is communicated to OJP and OVW, DOJ’s other
grant-awarding components. In particular, the list is sent to OJP’s OAAM for
consideration for inclusion in the high-risk list. Grantees designated as
high-risk by OJP are subject to additional special conditions on future OJP
and OVW grant awards. However, COPS’ restricted list is not communicated
to contracting officials, DOJ components awarding cooperative agreements,
other federal agencies, or the SDO.


       41
          Supplanting means using COPS grant funds to replace state or local funds that
otherwise would have been spent on the specific law enforcement purpose of the COPS
grant. For some COPS grant awards the grantee is obligated to provide local funding to
match a portion of the costs of the program unless a written waiver is obtained from COPS.


                                          - 24 -
       We compared COPS’ criteria for restricting grantees to the criteria that
would qualify an entity for suspension or debarment, and found that
violations that would qualify grantees for a COPS restriction could also meet
the requirements for consideration for suspension or debarment. For
example, suspension actions may be taken if adequate evidence exists to
suspect that an entity may qualify for debarment, and immediate action is
necessary to protect the public interest. A federal agency may debar a
person for a violation of the terms of a public agreement so serious as to
affect the integrity of an agency program, such as a willful violation of a
statutory or regulatory provision or requirement applicable to a public
agreement or transaction. COPS officials informed us that during the scope
of our audit, no grantees had been added to the restricted list as a result of
criminal convictions or civil settlements. 42

       We asked COPS officials why internally restricted grantees had not
been referred to the SDO for suspension or debarment, and were informed
that the COPS restricted list is mainly a last-resort sanction for grantees with
an inability to repay dollar-related grant violations. In addition, COPS
typically awards funding to state, local, and tribal governments for use by
their law enforcement agencies. Therefore, because suspension and
debarment have a government-wide effect, suspension or debarment would
prevent all agencies of the grantee’s government from receiving federal
funding, not just the law enforcement agency where the deficiencies may
have been identified.




       42
           According to COPS officials, COPS’ Restricted Grantees List only includes grantees
who could not afford to repay grant funds after the COPS Office found them in violation of
non-criminal grant requirements. The restriction period remedies the grant violation in lieu
of direct repayment of grant funds.

                                           - 25 -
Communication of Internal Remedies

        We asked OJP and COPS officials why their high-risk and restricted
lists, respectively, had not been shared with the SDO or components
awarding contracts or cooperative agreements. We were informed that the
lists are meant to be used as management tools and were not intended to
serve as a basis for other funding or suspension and debarment decisions.
As such, the legal basis of the high-risk list and restricted list is not the same
as the requirements of the FAR and may not be sufficient to deny funding.
Additionally, OJP and COPS officials told us that it is important not to take
these internal lists out of the context for which they were intended, which is
as a management tool to address grant violations. For example, issues that
would place a grantee on the high-risk list, such as inadequate accounting of
grant funding, would not necessarily apply to the same entity fulfilling a
fixed price contract.

      OJP and COPS officials also informed us that they are currently
working on an integrated approach to the application of internal remedies
within DOJ grant-awarding components with the OVW through the Grant
Challenges Working Group. This group will combine elements from both
OJP’s high-risk policy and COPS’ restricted grantee policy into one combined
policy to internally address poorly performing grantees.

Conclusion

      From FYs 2005 through 2010, DOJ components have applied internal
remedies to approximately 500 award recipients. These actions were
generally taken as a result of criminal investigations, open audit findings, or
component site and programmatic reviews. However, 17 referrals were
made for suspension or debarment, resulting in 13 debarment actions
against individuals or firms. For the limited number of suspension or
debarment decisions that had been made, these decisions were generally
made in a timely manner. However, these decisions were generally not
promptly or accurately communicated through the EPLS.

      Suspension and debarment only function as an effective deterrent to
fraud, waste, and abuse in federal programs if awarding officials ensure that
suspension and debarment actions are upheld, decisions are made in a
timely manner, and those decisions are properly communicated throughout
the federal government. Delays or deficiencies in decisions and reporting
create an opportunity for federal awarding officials to unknowingly make
awards to suspended or debarred parties.



                                     - 26 -
      Additionally, while internal actions taken by DOJ grant-awarding
components to address poorly performing award recipients may serve as
management tools for addressing deficiencies in administering federal
awards, these internal remedies do not include a maximum amount of time
a chronically irresponsible or unresponsive award recipient may remain
under internal restriction before they are referred for suspension or
debarment. Continued funding to irresponsible parties increases the risk of
fraud, waste, or abuse in federal programs, and prevents other more
responsible parties from accessing scarce funding resources.

Recommendations

We recommend that the SDO:

  4. Implement a case tracking system and ensure referrals are followed
     up on and exclusion decisions are made and reported to the EPLS in a
     timely manner, and

  5. Include written documentation of the final disposition of each referral
     and a brief statement in each case file of why suspension or
     debarment was not pursued in accordance with the Justice Acquisition
     Regulations. 43

We recommend that JMD:

  6. Immediately enter missing records into the EPLS, and correct any
     errors in the data already stored within the EPLS, and

  7. Implement quality control procedures to ensure that suspension and
     debarment actions are completely and accurately reported to the EPLS
     in a timely manner.

We recommend that COPS, OJP, and OVW:

  8. Consider including a maximum period of time an eligible grantee may
     remain designated as high-risk before they are referred for suspension
     or debarment when drafting the policy developed by the Grant
     Challenges Working Group.




     43
          48 C.F.R. Chapter 28 Subpart 2809.402.


                                        - 27 -
                STATEMENT ON INTERNAL CONTROLS



       As required by the Government Auditing Standards we tested as
appropriate, internal controls significant within the context of our audit
objectives. A deficiency in an internal control exists when the design or
operation of a control does not allow management or employees, in the
normal course of performing their assigned functions, to timely prevent or
detect: (1) impairments to the effectiveness and efficiency of operations,
(2) misstatements in financial or performance information, or (3) violations
of laws and regulations. Our evaluation of the Department of Justice’s (DOJ)
internal controls was not made for the purpose of providing assurance on its
internal control structure as a whole. 44 Each DOJ component’s management
is responsible for the establishment and maintenance of internal controls.

       As noted in the Findings and Recommendations section of this report,
we identified deficiencies in JMD’s internal controls that are significant within
the context of the audit objective and, based upon the audit work
performed, we believe adversely affect JMD’s ability to completely and
accurately upload suspension and debarment actions to the EPLS. As a
result, awarding officials performing a check of EPLS to determine eligibility
of a potential award recipient may not be able to properly identify a
suspended or debarred party, and potentially make an award to a restricted
party.

       We also identified deficiencies in the BOP’s internal controls that are
significant within the context of the audit objective and, based upon the
audit work performed, we believe adversely affect the BOP’s ability to detect
and prevent awards made to suspended or debarred parties. We identified
several awards where it did not appear that the BOP had checked the EPLS
prior to awarding contracts. The design of the internal control requires that
contracting officials check the EPLS. However, we identified a significant
deficiency in the operation of this control.




      44
          We initially surveyed DOJ’s 41 components to determine the applicability of
suspension and debarment at each component. We identified 11 components where
suspension and debarment is applicable: ATF, BOP, COPS, DEA, FBI, JMD, OFDT, OIG, OJP,
OVW, and USMS. However, the OIG was excluded from our audit because the Generally
Accepted Government Auditing Standards require auditors to decline to perform work where
impairments to independence can affect, or be perceived to affect, the independence of the
audit organization.


                                         - 28 -
       Because we are not expressing an opinion on DOJ’s internal control
structure as a whole, this statement is intended solely for the information
and use of the auditee. This restriction is not intended to limit the
distribution of this report, which is a matter of public record.




                                    - 29 -
                      STATEMENT ON COMPLIANCE

                     WITH LAWS AND REGULATIONS



      As required by the Government Auditing Standards we tested, as
appropriate given our audit scope and objective, selected transactions,
records, procedures, and practices, to obtain reasonable assurance that
DOJ’s management complied with federal laws and regulations for which
non-compliance, in our judgment, could have a material effect on the results
of our audit. 45 DOJ’s management is responsible for ensuring compliance
with federal laws and regulations. In planning our audit, we identified the
following laws and regulations that concerned the operations of the auditee
and that were significant within the context of the audit objective:

     •	 Executive Order 12549 - Established non-procurement suspension
        and debarment;

     •	 Executive Order 12689 – Extended the effect of procurement and
        non-procurement suspension and debarment to be reciprocal and
        government-wide;

     •	 Subpart 9.4 of the Federal Acquisition Regulation - Debarment,
        Suspension, and Ineligibility;

     •	 2 C.F.R. § 180 – OMB Guidelines to Agencies on Government-wide
        Debarment and Suspension (Non-procurement);

     •	 48 C.F.R. § 28 - Justice Acquisition Regulations;

     •	 2 C.F.R. § 2867 – Adopts OMB non-procurement guidelines as DOJ
        policies and procedures for non-procurement suspension and
        debarment;

     •	 28 C.F.R. § 67 - Adopts a government-wide system of debarment
        and suspension for DOJ non-procurement activities;

     •	 42 U.S.C. § 3782 – Establishes OJP’s authority to implement the
        high-risk list;

       45
          We initially surveyed all 41 components of the DOJ to determine the applicability
of suspension and debarment at each component. We identified 11 components where
suspension and debarment is applicable: ATF, BOP, COPS, DEA, FBI, JMD, OFDT, OIG, OJP,
OVW, and USMS. However, the OIG was excluded from our audit because the Generally
Accepted Government Auditing Standards require auditors to decline to perform work where
impairments to independence can affect, or be perceived to affect, the independence of the
audit organization.


                                          - 30 -
    •	 28 C.F.R. § 66.43(a)(4) – Uniform Administrative Requirement for
       Grants and Cooperative Agreements to State and Local
       Governments;

    •	 28 C.F.R. § 70.62(a)(4) – Uniform Administrative Requirement for
       Institutions of Higher Education, Hospitals, and Other Non-Profit
       Organizations; and

    •	 28 C.F.R. § 66.12 – Special grant of subgrant conditions for

       “high-risk” grantees.



       Our audit included examining, on a test basis, DOJ’s compliance with
the aforementioned laws and regulations that could have a material effect on
operations, through interviewing auditee personnel, analyzing data, and
examining procedural practices. As noted in the Findings and
Recommendations section of this report, we found that the BOP did not
comply with the requirements of the Federal Acquisition Regulation when it
failed to check the EPLS prior to making awards.

     We also found that JMD did not comply with the requirements of the
Federal Acquisition Regulation and 2 C.F.R. § 180 when it did not upload
suspension or debarment actions in a timely manner.




                                   - 31 -
                                                            APPENDIX I

            OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

      The objective of this audit was to evaluate DOJ’s implementation and
oversight of suspension and debarment activities to exclude parties from
receiving federal financial and nonfinancial assistance and benefits.

Scope and Methodology Section

      We conducted our audit work from August 2010 through April 2011.
We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based on our audit objective.

      We conducted an initial survey of DOJ’s 41 components to determine
the applicability of suspension and debarment at each component. The
survey instrument was emailed to all components. Follow-up was conducted
to achieve a 100-percent response rate. This survey asked if each
component had awarded grants, contracts, cooperative agreements, loans,
or loan guarantees in FYs 2005 through 2010. From the results of our
survey, we identified 11 components where suspension and debarment is
applicable: ATF, BOP, COPS, DEA, FBI, JMD, OFDT, OIG, OJP, OVW, and
USMS. The 30 components eliminated from the scope of our audit as a
result of this initial survey indicated that they had not made any such
awards. Therefore, suspension and debarment would not be applicable to
these components. The OIG was excluded from our audit because the
Generally Accepted Government Auditing Standards require auditors to
decline to perform work where impairments to independence can affect, or
be perceived to affect, the independence of the audit organization.

DOJ Awards to Suspended or Debarred Parties

       We contacted the relevant components and requested a complete list
of all contracts, grants, and cooperative agreements made within the scope
of our audit. We also obtained a list of all grants and contracts for each
relevant component through USA Spending. Contracts data within USA
Spending comes from the Federal Procurement Data System - Next
Generation, and includes procurement contract transactions reported directly
                                   - 32 -
through the contract writing systems since FY 2000. Assistance data from
FY 2007 and later comes from Federal Assistance Award Data System PLUS,
and includes grants, loans, direct payments and other assistance
transactions. Assistance data prior to FY 2007 comes from Federal
Assistance Award Data System, and also includes grants, loans, direct
payments and other assistance transactions. We did not verify the validity
of the data reported by these computer systems, nor did we rely on the
computer generated data as the basis of our findings. As described below,
we verified all potential awards to suspended or debarred parties to source
documentation to support any findings.

       We obtained a listing of suspended and debarred parties from the
Excluded Parties Listing System (EPLS), maintained by the General Services
Administration. In a February 2009 audit report on the EPLS, the
Government Accountability Office found that the EPLS data was insufficiently
reliable for determining how many excluded parties received federal awards
due to the number of missing entries in certain data fields and the lack of an
historical archive that results from record modifications. 70 Despite these
data limitations, we utilized the EPLS data to identify awards made by DOJ
to suspended or debarred parties due to the fact that there is no other
resource available to obtain a listing of suspended or debarred parties.
Therefore, due to the insufficient reliability of the EPLS data, our analysis
may not identify all instances of awards to suspended or debarred parties by
DOJ, and should not be treated as a comprehensive listing of such awards.

      We compared the listings of awards obtained directly from the
components and through USA Spending to the listing of suspended or
debarred parties in the EPLS. This comparison was performed using a match
of DUNS numbers, names, and addresses in a relational database software.
From the listing of potential awards to restricted parties generated by our
queries, we obtained the contract files from the awarding component to
determine if the award had violated the specific restriction reported to the
EPLS. We also interviewed component officials about the awards in
question.

DOJ Debarment Decisions

      We reviewed the case files for each of the suspension and debarment
referrals sent to the suspension and debarment official (SDO) to determine
the referring component, length of time required for the SDO to reach a

      70
        U.S. Government Accountability Office, Excluded Parties Listing System:
Suspended and Debarred Businesses and Individuals Improperly Receive Federal Funds,
GAO-09-174 (February 2009), 30-31.


                                        - 33 -
decision, and ultimate outcome of each referral. We compared the data in
the case files to the records contained in the EPLS to determine the
completeness, accuracy, and timeliness of the data reported to the EPLS.
We also interviewed JMD officials to obtain an understanding of the
suspension and debarment process within DOJ.

Other Internal Remedies Utilized by DOJ

      We reviewed written policies and procedures from OJP and COPS to
determine the internal remedies utilized by each component. We also
interviewed COPS and OJP officials about the purpose and utilization of
internal remedies within each component.




                                  - 34 -
                                                              APPENDIX II

                      CAUSES FOR DEBARMENT

A federal agency may debar a person for—

(a) Conviction of or civil judgment for—
   (1) Commission of fraud or a criminal offense in connection with

      obtaining, attempting to obtain, or performing a public or private

      agreement or transaction;

   (2) Violation of federal or state antitrust statutes, including those
      proscribing price fixing between competitors, allocation of customers
      between competitors, and bid rigging;
   (3) Commission of embezzlement, theft, forgery, bribery, falsification or
      destruction of records, making false statements, tax evasion, receiving
      stolen property, making false claims, or obstruction of justice; or
   (4) Commission of any other offense indicating a lack of business
      integrity or business honesty that seriously and directly affects the
      entity’s present responsibility;

(b) Violation of the terms of a public agreement or transaction so serious as
to affect the integrity of an agency program, such as—
   (1) A willful failure to perform in accordance with the terms of one or
      more public agreements or transactions;
   (2) A history of failure to perform or of unsatisfactory performance of one
      or more public agreements or transactions; or
   (3) A willful violation of a statutory or regulatory provision or requirement
      applicable to a public agreement or transaction;

(c) Any of the following causes:
   (1) A non-procurement debarment by any federal agency taken before
      October 1, 1988, or a procurement debarment by any federal agency
      taken pursuant to 48 C.F.R. part 9, subpart 9.4, before
      August 25, 1995;
   (2) Knowingly doing business with an ineligible person, except as

      permitted under §180.135;

   (3) Failure to pay a single substantial debt, or a number of outstanding
      debts (including disallowed costs and overpayments, but not including
      sums owed the federal Government under the Internal Revenue Code)
                                     - 35 -
      owed to any federal agency or instrumentality, provided the debt is
      uncontested by the debtor or, if contested, provided that the debtor's
      legal and administrative remedies have been exhausted;
   (4) Violation of a material provision of a voluntary exclusion agreement
      entered into under §180.640 or of any settlement of a debarment or
      suspension action; or
   (5) Violation of the provisions of the Drug-Free Workplace Act of 1988
      (41 U.S.C. 701); or

(d) Any other cause of so serious or compelling a nature that it affects the
entity’s present responsibility.




                                    - 36 -
                                                                     APPENDIX III
            FEDERAL BUREAU OF PRISONS
           RESPONSE TO THE DRAFT REPORT

                                     u.s. DCllartmcnt of Jus tice
                                     Fcdcm l Burea u of Priso ns




                                     11'''''';''1<''''', DC lOSJ.J




                                     September 12 , 2011




MEMORANDUM FOR RAYMOND J . BEAUDET
               ASSISTANT INSPECTOR GENERAL
                 FOR AUDIT




FROM:          Thomas R. Kane, Acting Director

SUBJECT,       Response to the Office of Inspector General ' s (OIG)
               Draft Report,  Audit of Administrative Suspens~on,
               Debarment, and Other Interna l Remedies Within the
               Department of Justice

The Bureau of Prisons (BOP) appreciates the opportunity to respond
to the open recommendat ions from the draft report entitled Audit of
Administrative Suspension, Debarme n t, and Other I nternal Remedies
Within the Department of Justice.

Please find the Bureau's response to the recommendation below,

Recommendation #~:  Ensure awarding officials check the EPLS prior
to making awards or exercising options as required by the FAR.

Response:  The Bureau concurs with the recommendation, and issued
guidance to the field on June 30, 2011, requiring staff to check the
EPLS directly and on the same day as award .   See attached memo.

It should be noted that the Unified Financial Management System
(UFMS) that is used for all acquisitions has an automatic feed from
Central Contractor Registration (CCR) which is fed information from
EPLS.  Staff were instructed during implementation of UFMS that
debarment could be verified through UFMS.  During this audit, it was




                               - 37 -
brought to t~ attention of t~ Procur~nt BxeCutive 8ranch that
BPLS doe. not feed regularly to cca. thue BPLS 1nfo~ t 1on ie not
relayed to VPMS ti . . ly. Therefore. aequlaitlon .taff have been
In.truct~ to Check BPLS directly.     we r.quea • • hi. reco.aendation
be cl.,.~.




".po~   •• ' The SOP concur. wi t h t be rec~~tion e x cept for
ctrtain ea. •• th.t involve utilit....             For axa.pla. in the ca •• of
an award to a parent company wi th _Hiple pl..,.,t. . . .hare It c ....".,t
be deteraine4 which plant auppl.e. t he utility. t he SOP doe. not
believe .. ..aiver 1. needed if a particular plar.t (other the-, the
pare"" co.pany) . . on tbe EPLS.          I t ,h. par.". C_"Y I t o _           tM
a .. ard" giv.",) . . on tbe BPLS • •""".M BOP """""'u that a ... rd .I>ould
not be giv.n 0 .. a .... i""'r ..... t be obt .. ined ""'" to thfl natu .. a of the
too=odity and li.it~ availability of otMr .ourc....


eoooponent becoooe ..... r .. of .. n a ..ard to a .u....nded o r debarr~ party
.. fter t he .. ward haa bee" . .de. and doc~nt any ju.tlficationa for
not ......,...... ti"g ,,"y h.proper a ...........

....po1>...  The BOP cancura with thia rae".....~tion and .. Ill provide
.. ritta" guidance to all aequl.ltion .taff r.g.. rdlng .hla
r " , , _ t l o n by October H.       2011.

I f you h.a""" any que. tiona regardi"'1 thl ...... poI'. . . . pl.a ... c=tact
K. J. Marberry. Aa.latant Dlr.ctor. progr. . Revi ... Divi.lon. at
(2021   353-2302.




                                     - 38 -
                                              -.....    '" ,.,..
                                              . I - . )/I. 20!!
                                                                   .

MDOOI<1.IIWM I'0Il At..!. .o.c:ouISItIOH St Arr




                 f
                  fWJ;jr
                     o..lono Ely
                     P",eur_nt     £.lI""u~ ~ ••
S:.rBJECT:         V"ify l ng Cont , octor St.tu. t~rouqh tho
                   !.clu~ P a r~ios Li.~ Syst. . 15PLS)

ThO pur,.. •• 01 thl • ..-or.n4~ 10 to ...1 04 Bur •• u of p.l.one
ocqu i.l tlon .to!l to • •• '.v EPLS p.lo. to . ~o .dlng oil now
p.OCur_nU.

A   r_'.t ... U ..       ~PLS 004 C.n . . ol Cont.octor ~"",Iot< . . lon
                     01 t ...
(CC"'I   Sy . to~ •••••• led
                         EPLS doe. not update CC ... on 0 dolly
bo.I ., ~Lch ..on. tho Unified ~lnancl.1 Non09...nt Sy.t~ I.
04' .lw.y. curr.nt . Th ••• • o •• , to ~ly .. Itn rodoro l
Acquioit! on ROQul.t ion IrAR) " Tt ' . ' , DobOnDfn t, suopon.!on 004
If\01I9'b1itty. e"orr oholl "tHy pTior t o and on thO . . . . dol
e. owerd t~, EPLS " " u . o f all pot.ntial a wardee. and
aobcontrocto... th. EPLS ia •• o ll,bl, a t nttp : ".pla.90Y .

H you !loY. 4;'1 IUItMr quostIono, pl. . . . <10 IIOt hUIUt.              to
contocl J . . . . U. Smith, Chi.,.      Procur~n"          PoI.cy and ae.olut lon
Section Ot 12C2 1 lOl-0ge~ .




                                         - 39 -
                                                                                                              APPENDIX IV
                     JUSTICE MANAGEMENT DIVISION
                     RESPONSE TO THE DRAFT REPORT

                                                                u.s. Department of Ju s tice
                                                                Ju stice Management Div ision




                                                                Was hington, D . C. 20530


September 13, 20 11

MEMORANDUM FOR RA YMOND J. BEAUDET
              ASSISTANT INSPECTOR GENERAL FOR AUDIT
              OFF ICE OF THE INS PECTOR GENERAL

FROM:                        MichaelH .Allen        ~~r:/.~
                             D eputy Assistant Attorney General

SUBJECT:                     Response to Office ofInspector General Draft Audit Report,
                             Audit of the Adm inistrative Suspension, Debarment,
                             and Other Internal RemediesWithin the Department of Justice

The Department of Justice (Department), Justice Management Division (JMD), has reviewed the
Office of the Inspector General's (OIG's) Draft Audit Report -- Aud it of the Administrati ve
Suspension, D ebarment, and Other Internal Remedies W ithin the Department of Justice (Report).
The Report makes 8 recommendations, of w hi ch 7 app ly to JMD.' As explained below, JMD
agrees with the Report's findings and concurs with the recommendations and provides a brief
sUlllmary of steps JMD has taken to imp lement them.

        Recommendations 1 -3, The Report reco mmends that JMD (I) ensure that awarding
officials check the General Service Administration's (GSA's) Excluded Parties List System
(EPLS) prior to making a contract award or exercising options; (2) seek waivers from the
S uspens ion and Debarring Official (SDO) to justifY ongoing co ntract work utili z ing s uspended
or debarred parties;2 and (3) consider termination of any contract currently being performed by a
suspended or debarred party.

       Response. These recommendations are predicated upon the finding that, during the 5-year
period under review (Fiscal Year (FY) 2005 - FY 2010), the JMD Procurement Services Staff
(PSS) issued a task o rder on a sole source basis, and subsequently modified the order, while the
contractor was lis ted on the EPLS, in the total amount of $30K. As explai ned during the audit,
the award and modification was based on the fact that only one contractor was capab le of
performing the wo rk required by the Department, and it appears that the work was perfonned

I Recommendations I - 3 apply to both JMD and the Federal Bureau of Prisons, and Recommendation 8 applies to
the Office o f Justice Programs and the Office 011 Violence Against Women. The following comments are limited to
those recommendations applicable to JMO only.

2  Approva l for award of co ntracts or provis ion of new work to an individual or organization identified on the EPLS
is made by the head of the agency, or his or her de legee. Federal Acquisition Regulation (FAR) 9.405 . For JMD,
approval has been delegated to the Assistant Attorney General fo r Administration.




                                                        - 40 -
satisfactorily. Nevertheless, the failure to receive the required approval clearJy was an oversight
by the contracting officer, now retired. The Director ofPSS intends to issue guidance, reminding
his staff ofthe need to check the EPLS to reduce the risk of such oversights in the future.
Recommendations 2 and 3 appear inapplicable to JMD, as the subject contract is expired; the
former contractor is no longer listed on the EPLS; and JMD is unaware of any excluded party
with w hom JMD is contracting.

        Recommendations 4 - 5. The Report recommends that the SDO (4) implement a case
tracking system to ensure that referrals are followed up on and exclusion decisions are reported
to the EPLS, and (5) include written documentation of the final disposition of each referral.

         Response. These recommendations are predicated on the findings that a 2006 referral was
misfiled and "fell through the cracks," and that one debarment decision during the 5-year subject
period was issued 47 days after the close of the record, rather than the 45 days provided in the
regulation. The Report also notes that, although not required by regulation, a number of case
files for which the SDO determined that debarment was either inappropriate or unnecessary did
not include documentation summari zing the basis for the decision. As noted in the Report,
earlier this year, following a discussion w ith the OIG Audit Staff regarding means to improve the
Department's suspension and debarment program, the SDO implemented an electronic
suspension and debarment case tracking system. The system is accessible to those within JMD
involved in the suspension and debarment program. Additionally, the SDO directed staff to
provide a description or summary in the case files supporting the decision in those matters for
w hich suspension or debarment is not imposed. Accordingly, JMD has implemented both of
these OrG recommendations and therefore considers them closed.

       Recommendations 6 - 7. The Report recommends that JMD (6) immediately enter
missing records into the EPLS and correct any errors in data already stored within EPLS , and (7)
implement quality control procedures to ensure that suspension and debarment decision are
completely and accurately reported to the EPLS in a timely manner.

        Response. As noted in the Report, the entire staff responsible for entering information
into the EPLS retired in FY 2009 (representing more than 150 years of combined Government
experience), and due to the time required by the federal hiring process it was not possible to
replace these individuals immediately. JMD now has staff in place, trained to enter information
into the EPLS. Additionally, as also noted in the Report and above, JMD has implemented a
suspension and debarment tracking system. accessib le to those trained to enter infonnation into
the EPLS , and a Standard Operating Procedures (SOP), including providing a process to
communicate suspension and debannent decisions to the Department's Bureau Procurement
Chiefs. JMD anticipates correcting the inaccurate EPLS records within 30 days.

JMD appreciates the opportunity to comment on the OrG's Draft Report. We also appreciate the
time and effort of the OrG Audit Staff in its review ofthe Department's suspension and
debarment program. We believe that implementing the recommendations, and in particular the
suggestion of the electronic suspension and debarment tracking system, will significantly
improve the suspension and debarment process. Should you have any questions regarding this



                                                2




                                              - 41 -
oopoc:. _Iudutc J1>I0·,        picMe" _ _ ... - ' Jt.idIaod Thal. """
                                                                    . _ _•
., n_ . ~!·               _(:JIU)SI"-.




                                         ,

                                         - 42 -
                                                                                           APPENDIX V

      OFFICE OF COMMUNITY ORIENTED POLICING
      SERVICES RESPONSE TO THE DRAFT REPORT

          U.s. DEPARTMENT OF JUSTICE
          OFFICE OF COMMUNITY ORIENTED POLICI~G SERVI C E S                       COPS
          Office of the Director
          14 5 N Stree t . N .E .. Washingw n , D C 20 530


MEMORANDUM

TO:           Raymond J. Beaudet
              Assistant Inspector Gene~
                                      al udit Office of the Inspector General

              Bernard K. Me lekian
FROM:
              Director                                 r,1;
              Office ofCom_m unity 0 ·ented Policing Services (COPS)

SUBJECT:      Draft Audi t Report -- Audit of Administrative Suspension. Debannent, and Other
              Internal Remedies wi thin the Department of Justice

DATE:          September 13, 2011


This memorandum is in response to the Office of the Inspector General's (OIG) above­
referenced draft audit report dated August 31 , 20 11. The COPS Office thanks the O IG for the
opportunity to respond to the auditors ' recommendations.

         For ease of review. the draft audit recommendation pertaining to the COPS Office is
s tated in bo ld and underlined. followed by the COPS Office' s response to recommendation.

Recommendation 8. We recommend that COPS. OJP, and OVW consider including a maximum
period of time an eligible grantee may remain under internal restriction before they are referred
for suspension or debarment when drafting the policy developed by the Grant Challenges Working
Group.

        The COPS Office agrees with this recommendation . When drafting the Department of
Justice (DOJ , Department) High-risk Policy, the DOJ Grants Management Challenges
Workgroup will consider including a maximum period of time an eligible 001 grantee may
remain under internal restriction (i.e ., designated as high-risk) before they are referred for
sus pension or debannent, if applicable. The DOJ Grants Management Challenges Workgroup,
led by a Deputy Associate Attorney General in the Department's Office of Associate Attorney
General, is comprised of s taff from OJP, the Office of Community Oriented Policing Services
(COPS), and the Office on V iolence Against Women (OVW). Policies and procedure s
developed by this group are applicable to grants and cooperative agreements issued b y all three
components . The COPS Office considers this recommendation resol ved and requests written
acceptance of this action from your office.

       The COPS Office thanks the Office of the Inspector General for the opportwUty to review
and respond to this draft audit. If you have any questions, please contact Marcia Sanluels,




                                                 - 43 -
Raymond J. Beaudet
Assistant inspector General for A lIdit
September 13, 20li
Draft Audit R eport -- Audit ofAdministrative Suspension, Debarment, and O ther internal
Remedies within the D epartment ofJustice
Page 2

A cting D eputy Director for Operations, at (202) 514-8507; Cynthla Bowie, Assistant Director,
Audit Liaison Division, at (202) 6 16-3645; or Martha Viterito, Program Audi t Liaison, at 202.
5 14.6244.

cc:      (copies prov ided e lectro nica ll y)
         Karol V. Mason
         Deputy Associate Attorney Genera l

         Hela ine Greenfield
         Deputy Associate Attorney Genera l

         Lou ise Duhamel
         Acting Assistant Director
         Audit Liai son Group
         Justice Management Division

         He len Marberry
         Assistant Director
         Program Rev iew Divis io n
         Federal Bureau of Pri sons

         Maureen A. Henneberg
         Director
         Office o f Audit, Assessment, and Management
         O ffice o f Justice Programs

         Jeffrey A. Haley
         Deputy Director
         Audit and Review D iv ision
         Office o f Audit, Assessment, and Management
         Office o f J usrice Prog rams

          Linda J. Taylor
          Lead A ud itor
          Audit Coordination Branch
          Audit and Rev iew Div is io n
          O ffice o f Audit, Assessme nt, and Management
          Office of Ju stice Programs

          Angela Wood
          Budget Officer
          O ffi ce on Violence Aga in st Women

          Rodney D. Samuels
          Audit Liai son
          Office on Vio lence Again st Women




                                                 - 44 -
                                                                                                 APPENDIX VI

              OFFICE OF JUSTICE PROGRAMS
             RESPONSE TO THE DRAFT REPORT
                                                        u.s,   De partment of J ustice

                                                        Office of Just ice Programs

                                                        Office of the Assi#ant Attorney Genera l


                                                        IIWh"'ll<"'. D.C. 20531



SEP 1 2 11Hfl
MEM ORAND UM TO:                 Cynthia A. Schnedar
                                 Acting lnspcc(or General
                                 Uni(ed States Department of Justice

T H ROUG H :                     Raymond J. Beaudet
                                 Assistant Ins pector General for Audit
                                 Oflice of the Inspector Genera!
                                 United S ta tes Department o f Just ice

FROM:                            Lau ric O . R obinson
                                 Assista nt Anorney Gene ra l

SUBJECT:                         Response to the Offiee of the Inspector General's Draft Audit
                                 Report, Administrativc Suspension_ Debarmellt. and Othe r
                                 imernal Remedies Within the Deparlmellf ofJustice

T his mcmorand um provides a response to lhe Office of the Inspector Genera!" s (OIO 's)
August 31,2011 draft aud it report, en titled Adl1lini~'lra(ive Suspension. Debarmcnt_ and Olher
Internal Remcdies Within thc Dcpartmen t ofJus/ice. The O ffice of Just ice P rograms (OJP)
appreciates the opportuni ty to review and comment on the draft aud it report, and agrees with the
conclusions and the recommend ations de tai led in the report.

The draft aud it report contains eight recommendations, of which Recom mendat ion Number S
pertains to Ol P. For e ase of review, the draft audi t report recommendation is restated in bold
and is followed by OJP 's response.

8,     We recommcnd that COPS , OJ1" :md OVW co n side r includin g a m a )':imuUl p e riod
       of t iUle an e ligi b le g r a nt ee m a y r e main d es ig nated a s hig h -l'is k before t h ey arc
       r efe rr ed for s u spen s ion 01" deb:t n llent whe n drafting the policy d eveloped by th e
       G r a nt C hlllle n ges 'Vo rki ng Gro up _

       T he Office of J ustice Programs agrees with the recommendatio n. When drafting [he
       Departll1Cnt of Justice (DOJ, Department) H igh-risk Policy, the DOJ Grants Management
       Challenges Workgrou p will consider including a max imum period of time an e ligible
       001 grantee may remain des ignated as high-risk before they are relerred for suspension
       or debarment, if applicable. The DOJ Grants Management Challenges Workgroup, k-d




                                              - 45 -
       by a Deputy Associate Attorney GeneraJ in the Department's Office of the Associate
       Attorney General , is comprised of officials from OlP, the Office of Community Oriented
       Policing Services (COPS), and the Office on Violence Against Women (OV\V). Policies
       and procedures developed by tlus group arc applicable to grants and cooperative
       agreements issued by all three components. The Otlice of Justice Programs considers
       this recommendation resolved and requests written acceptance of this action from your
       office.

Thank yOlI for your continued support and assistance. If you have any questions regarding this
response, please contact Maureen A. Henneberg, Director, Office of Audit, Assessment, and
Management, on (202) 616-3282.

cc:    Mary Lou Leary
       Pri ncipal Deputy Assistant Attorney General

       James H. Burch, IT
       Deputy Assistant Attorney General
         for Operations and Management

       Denise O'Donnell
       Director
       Bureau of Justice Assistance

       Leigh Benda
       Chief Financial Officer

       Rafael A. Madan
       General C{)unsel

       Phil Merkle
       Director
       Office of Administration

       Maureen A. Henneberg
       Director
       Office of Audit, Assessment, and Management

       1effery A. Haley
       Deputy Director, Audit and Review Di vision
       Office of Audit, Assessment, and Management

       Louise M . Duhamel, Ph.D.
       Acting Assistant Director, Audit Liaison Group
       1ustice Mmlagement Division




                                                2




                                            - 46 -
cc :   Karol V . Mason
       Deputy Associate AUomey General
       Office of the Associate Attorney General

       Bernard Melckian
       Director
       Office of Community Oriented Policing Servi.ces

       Susan B. Carbon
       Director
       Office on Violence Against Women

       O JP Executive Secretariat
       Control Number 201 11608




                                                  3




                                           - 47 -
                                                         APPENDIX VII

              OFFICE OF THE INSPECTOR GENERAL

             ANALYSIS AND SUMMARY OF ACTIONS

               NECESSARY TO CLOSE THE REPORT



     The OIG provided recommendations to five components of the
Department of Justice (DOJ): the Federal Bureau of Prisons (BOP),
Community Oriented Policing Services (COPS), Justice Management Division
(JMD), Office of Justice Programs (OJP), and the Office on Violence Against
Women (OVW), and provided them a draft of this audit report. Each
component’s response is incorporated into this final report as a separate
Appendix. The following provides the OIG analysis of the response and
summary of actions necessary to close the report.

Recommendation Number 1:

     (BOP) Closed. The BOP agreed with our recommendation to ensure
     awarding officials check the EPLS prior to making awards or exercising
     options as required by the FAR. In its response, the BOP provided a
     memorandum dated June 30, 2011, requiring staff to check the EPLS
     directly and on the same day as award.

     We reviewed this memorandum and determined it adequately
     addresses our recommendation. Therefore, this recommendation is
     closed.

     (JMD) Resolved. JMD agreed with our recommendation to ensure
     awarding officials check the EPLS prior to making awards or exercising
     options as required by the FAR. In its response, JMD explained that
     the contract in question was an oversight by a now retired contracting
     officer. However, the Director of Procurement Staff Services intends
     to issue guidance reminding staff of the need to check the EPLS to
     reduce the risk of future oversights.

     This recommendation can be closed when JMD provides documentation
     of the guidance from the Director of Procurement Staff Services.

Recommendation Number 2:

     (BOP) Resolved. In response to our audit report, the BOP agreed
     with our recommendation to seek a waiver for any justified ongoing

                                   - 48 -
contract work utilizing suspended or debarred parties except in cases
involving utilities. The BOP stated that it does not believe that a
waiver is necessary in cases where it cannot be determined which
plant supplies the utility and ineligible plants within an otherwise
eligible parent company exist. We provide the following reply to this
statement before discussing the BOP’s actions necessary to close this
recommendation.

The OIG acknowledges that electric and water utilities are essential to
operating a detention facility, and that in most areas there is only one
option in service providers. However, despite the fact that the BOP
had only contracted with eligible parent companies, the unique issues
that arise from the provision of utility services make it impossible for
the BOP to ensure that federal funding is not provided to ineligible
facilities operated by an otherwise eligible company. Suspension and
debarment are tools designed to prevent irresponsible parties from
obtaining federal funding. In this case, the Environmental Protection
Agency took steps to ensure that federal funding did not go to support
the egregious and continued environmental violations identified at the
facilities in question. Provisions of the FAR allow an agency to obtain a
waiver for justified ongoing work with excluded parties. This allows
essential services to continue while still enforcing suspension and
debarment actions.

This recommendation can be closed when the BOP provides
documentation that electric or water utility contract services are not
provided to the BOP by ineligible plants, or documentation that the
BOP has obtained a waiver to continue ongoing contracts for electric
and water utilities where an otherwise eligible parent company is
providing services to the BOP through ineligible facilities.

(JMD) Closed. JMD agreed with our recommendation with our
recommendation to seek a waiver for any justified ongoing contract
work utilizing suspended or debarred parties. In its response, JMD
stated that this finding is no longer applicable as the subject contract
is expired; the former contractor is no longer listed in the EPLS; and
JMD is unaware of any excluded parties with whom JMD is currently
contracting.

We reviewed JMD’s response, concurred with its assessment, and
determined it adequately addresses our recommendation. Therefore,
this recommendation is closed.



                               - 49 -
Recommendation Number 3:

    (BOP) Resolved. The BOP agreed with our recommendation to
    consider termination of awards should a component become aware of
    an award to a suspended or debarred party after the award has been
    made, and document any justifications for not terminating any
    improper awards. In its response, the BOP stated that they will
    provide written guidance to all acquisition staff regarding this
    recommendation.

    This recommendation can be closed when we receive documentation of
    this written guidance.

    (JMD) Closed. JMD agreed with our recommendation with our
    recommendation to consider termination of awards should a
    component become aware of an award to a suspended or debarred
    party after the award has been made, and document any justifications
    for not terminating any improper awards. In its response, JMD stated
    that this finding is no longer applicable as the subject contract is
    expired; the former contractor is no longer listed in the EPLS; and JMD
    is unaware of any excluded parties with whom JMD is currently
    contracting.

    We reviewed JMD’s response, concurred with its assessment, and
    determined it adequately addresses our recommendation. Therefore,
    this recommendation is closed.

Recommendation Number 4:

    (JMD) Closed. JMD agreed with our recommendation to implement a
    case tracking system to ensure that referrals are followed up on and
    exclusion decisions are reported to the EPLS. In its response, JMD
    stated that they have implemented a case tracking system, and had
    provided auditors with documentation of the new system.

    We reviewed the documentation provided by JMD, and determined it
    adequately addresses our recommendation. Therefore, this
    recommendation is closed.

Recommendation Number 5:

    (JMD) Closed. JMD agreed with our recommendation to include
    written documentation of the final disposition of each referral. In its
    response, JMD stated that the Suspending and Debarring Official

                                  - 50 -
    directed staff to provide a description or summary in the case file
    supporting the decision in those matters for which suspension and
    debarment is not imposed.

    We reviewed JMD’s response, and determined it adequately addresses
    our recommendation. Therefore, this recommendation is closed.

Recommendation Number 6:

    (JMD) Resolved. JMD agreed with our recommendation to
    immediately enter missing records into the EPLS and correct any
    errors in data already stored within the EPLS. In its response, JMD
    stated that they have implemented a tracking system and standard
    operating procedure to improve the accuracy of records entered into
    the EPLS, and that they anticipate correcting the inaccurate records
    within 30 days.

    This recommendation can be closed when we receive documentation of
    the corrected errors within the EPLS.

Recommendation Number 7:

    (JMD) Closed. JMD agreed with our recommendation to implement
    quality control procedures to ensure that suspension and debarment
    decisions are completely and accurately reported in a timely manner.
    In its response, JMD stated that they have implemented a tracking
    system and standard operating procedure to improve the accuracy of
    records entered into the EPLS. JMD also provided auditors with
    documentation of the new tracking system as well as a standard
    operating procedure to improve the process of entry of suspension and
    debarment actions into the EPLS.

    We reviewed the documentation provided by JMD, and determined it
    adequately addresses our recommendation. Therefore, this
    recommendation is closed.

Recommendation Number 8:

    (COPS) Resolved. COPS agreed with our recommendation to
    consider including a maximum period of time an eligible grantee may
    remain designated as high-risk before they are referred for suspension
    and debarment when drafting the policy developed by the Grants
    Challenges Working Group.


                                  - 51 -
This recommendation can be closed when COPS provides a copy of the
final approved DOJ High-risk Policy.

(OJP) Resolved. OJP agreed with our recommendation to consider
including a maximum period of time an eligible grantee may remain
designated as high-risk before they are referred for suspension and
debarment when drafting the policy developed by the Grants
Challenges Working Group.

This recommendation can be closed when OJP provides a copy of the
final approved DOJ High-risk Policy.




                             - 52 -
